<html>
<title> - THIRD WALTER REED OVERSIGHT HEARING: KEEPING THE NATION'S PROMISE TO OUR WOUNDED SOLDIERS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
 THIRD WALTER REED OVERSIGHT HEARING: KEEPING THE NATION'S PROMISE TO 
                          OUR WOUNDED SOLDIERS

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 26, 2007

                               __________

                           Serial No. 110-53

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov


                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
42-584 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

             COMMITTEE ON OVERSISGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                JIM JORDAN, Ohio
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
STEPHEN F. LYNCH, Massachusetts      DAN BURTON, Indiana
BRIAN HIGGINS, New York              JOHN M. McHUGH, New York
                                     TODD RUSSELL PLATTS, Pennsylvania
                       Dave Turk, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 26, 2007...............................     1
Statement of:
    Pendleton, John, Acting Director, Health Care, U.S. 
      Government Accountability Office, accompanied by Daniel 
      Bertoni, Director, Education, Workforce, and Income 
      Security, U.S. Government Accountability Office; Major 
      General Eric Schoomaker, Commander, Walter Reed Army 
      Medical Center; Michael L. Dominguez, Principal Deputy 
      Under Secretary of Defense, Personnel and Readiness, U.S. 
      Department of Defense; and Patrick W. Dunne, Rear Admiral, 
      retired, Assistant Secretary for Policy and Planning, U.S. 
      Department of Veterans Affairs.............................    31
        Bertoni, Daniel..........................................    65
        Dominguez, Michael L.....................................    79
        Dunne, Patrick W.........................................   104
        Pendleton, John..........................................    31
        Schoomaker, Major General Eric...........................    66
Letters, statements, etc., submitted for the record by:
    Davis, Hon. Tom, a Representative in Congress from the State 
      of Virginia, prepared statement of.........................    15
    Dominguez, Michael L., Principal Deputy Under Secretary of 
      Defense, Personnel and Readiness, U.S. Department of 
      Defense:
        Followup questions and responses.........................   127
        Prepared statement of....................................    81
    Dunne, Patrick W., Rear Admiral, retired, Assistant Secretary 
      for Policy and Planning, U.S. Department of Veterans 
      Affairs, prepared statement of.............................   107
    Pendleton, John, Acting Director, Health Care, U.S. 
      Government Accountability Office, prepared statement of....    34
    Schoomaker, Major General Eric, Commander, Walter Reed Army 
      Medical Center:
        Followup questions and responses.........................   141
        Prepared statement of....................................    70
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............    26
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts:
        Prepared statement of....................................    10
        Prepared statement of Senator Bob Dole and Secretary 
          Donna Shalala..........................................     3
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................    22


 THIRD WALTER REED OVERSIGHT HEARING: KEEPING THE NATION'S PROMISE TO 
                          OUR WOUNDED SOLDIERS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 26, 2007

                  House of Representatives,
     Subcommittee on National Security and Foreign 
                                           Affairs,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m. in 
room 2157, Rayburn House Office Building, Hon. John F. Tierney 
(chairman of the subcommittee) presiding.
    Present: Representatives Tierney, Lynch, Higgins, Yarmuth, 
McCollum, Van Hollen, Hodes, Welch, Waxman [ex officio], Shays, 
Platts, Turner, Westmoreland, and Davis of Virginia [ex 
officio].
    Also present: Representative Norton.
    Staff present: Roger Sherman, deputy chief counsel; Brian 
Cohen, senior investigator and policy advisor; Daniel Davis, 
professional staff member; Teresa Coufal, deputy clerk; Caren 
Auchman, press assistant; Dave Turk, staff director; Andrew Su 
and Andy Wright, professional staff members; Davis Hake, clerk; 
Dan Hamilton, fellow; David Marin, minority staff director; A. 
Brooke Bennett, minority counsel; Grace Washbourne and Janice 
Spector, minority senior professional staff members; 
Christopher Bright, minority professional staff member; Nick 
Palarino, minority senior investigator and policy advisor; 
Brian McNicoll, minority communications director; and Benjamin 
Chance, minority clerk.
    Mr. Tierney. Good morning, everybody. For some reason Mr. 
Shays has been unable to extricate himself from his other 
committee, but I expect him to be over shortly, and Mr. Davis, 
as well. We don't want to hold you gentlemen up. You have been 
kind enough to come here and give us your time, and we 
appreciate that.
    We are going to begin our hearing entitled, ``Third Walter 
Reed Oversight Hearing: Keeping the Nation's Promise to Our 
Wounded Soldiers.''
    I am going to ask unanimous consent that only the chairman 
and ranking member of the subcommittee and the chairman and 
ranking member of the full Oversight and Government Reform 
Committee be allowed to make opening statements. Without 
objection, that will be ordered.
    I also ask unanimous consent that the written statement of 
former Senator Bob Dole and former Secretary Donna Shalala, Co-
Chairs of the President's Commission on Care for America's 
Returning Wounded Warriors, be submitted for the record. 
Without objection, that also is ordered.
    [The prepared statement of Senator Bob Dole and Secretary 
Donna Shalala follows:]

[GRAPHIC] [TIFF OMITTED] T2584.001

[GRAPHIC] [TIFF OMITTED] T2584.002

[GRAPHIC] [TIFF OMITTED] T2584.003

[GRAPHIC] [TIFF OMITTED] T2584.004

    Mr. Tierney. I ask unanimous consent that the gentlelady 
from the District of Columbia, Representative Eleanor Holmes 
Norton, be allowed to participate in this hearing. In 
accordance with our rules, she will be allowed to question the 
witnesses after all official members of the subcommittee have 
first had their turn.
    I ask unanimous consent that the hearing record be kept 
open for 5 business days so that all members of the 
subcommittee will be allowed to submit a written statement for 
the record. Without objection, that is all ordered.
    Good morning. On March 5th, we held a hearing at Walter 
Reed. At the medical center, we heard from Specialist Jeremy 
Duncan, from Annette and Dell McCloud, and from Staff Sergeant 
Dan Shannon about their experiences with military health care--
the mold, the red tape, the frustrations; all of the situations 
that were reported that have frustrated all of you, as well as 
members of this panel.
    In preparation for the hearing today, we reached back out 
to all of those witnesses to find out what was going on with 
them, to ask if there was anything else they needed for help, 
to get their take on how things have improved or not improved, 
and what our committee needed to focus on, in their opinions, 
with respect to our sustained and hopefully vigorous oversight.
    Jeremy Duncan is at Fort Campbell fighting to rejoin his 
unit overseas in Iraq. Annette and Dell McCloud have noticed 
some improvements, but they are still navigating through the 
retirement compensation process. And Sergeant Shannon's most 
recent experiences with military health care were recounted in 
the Washington Post less than 2 weeks ago. He is trying to 
leave Walter Reed, but he has faced some additional 
bureaucratic roadblocks, which I think General Schoomaker can 
report have been overcome at this point in time.
    Sergeant Shannon did tell us something that I think gets to 
the heart of this matter, and he said recommendations mean 
nothing until something is done with them. That is exactly what 
this oversight is all about.
    At an April 17th hearing, we heard the recommendations of 
the Defense Secretary's Independent Review Group. Since then, 
the President's Commission, led by former Senator Dole and 
Secretary Shalala, issued their own recommendations.
    The purpose of today's hearing will be to ensure that these 
recommendations and the human faces and stories of our Nation's 
wounded soldiers behind them, aren't ignored or forgotten, 
which unfortunately has too often happened in the past, and 
also to make sure that our Government is moving swiftly to 
address all of the problems that were identified.
    This morning we will hear from top directors with the 
Government Accountability Office, Congress' investigatory arm, 
on where we are at. Instead of yet another commission or panel 
issuing recommendations, today we will get the first 
independent assessment of the progress we have made and of the 
challenges and obstacles that may lie ahead.
    We are also going to hear directly from key officials in 
the Army, the Department of Defense, and the Department of 
Veterans Affairs who have been tasked with fixing the problems 
and implementing all of the various recommendations.
    We have been told time and time again that things are 
improving and that, next to the wars in Iraq and Afghanistan, 
taking care of our wounded soldiers is the highest priority of 
our military. While I believe some progress has been made, 
especially through some of the Army's efforts to throw 
significant additional resources, energy, and manpower at the 
problem, I would like to take a few moments to highlight some 
lingering concerns. I do not do this to focus on the negative. 
I do this because taking care of our wounded heroes is too 
important to not demand that we strive for the highest levels 
of care and respect, and that we do so with a sense of real 
urgency.
    A number of us on the subcommittee visited Walter Reed 
earlier this week. We had the privilege and honor to meet with 
our brave men and women recovering there, and here is what we 
heard. First, the disability review process is broken, plain 
and simple. It is burdensome, archaic, and adversarial. We also 
heard stories of wounded soldiers so frustrated that they would 
tell us they were just ``giving up.''
    Second, the challenges we face with traumatic brain injury, 
TBI, and post-traumatic stress disorder, PTSD, are immense. We 
heard stories about TBI stigma; that is, soldiers afraid to 
come forward for help out of fear that they would be kicked out 
of the military.
    Third, quality control and oversight will be absolutely key 
going forward. While the Army has thrown significant bodies at 
the problem, we need systems to identify and reward great 
performers and to identify and deal with those treating our 
wounded soldiers with anything but respect.
    These challenges--and countless others--won't be easy to 
overcome. For instance, we have known for a long time that the 
disability review process is broken, but we haven't had the 
will or the sustained focus to fix it in the past. Will the 
newly created Senior Oversight Committee, made up of top 
officials from the Department of Defense and the Veterans 
Administration, be up to the task of urgently and finally 
fixing and reinventing the disability review process? Will our 
military be able to hire additional top nurses and 
psychologists, a key challenge that the GAO has highlighted.
    Finally, what are we doing now to plan for the future? In 
my District in Massachusetts, instead of expanding and 
enhancing health services and retaining specialized personnel, 
the Veterans Administration officials continue to push for 
consolidation. They are limiting options for our veterans when, 
unfortunately, there will clearly be a high demand for years 
and years to come.
    As chairman of the National Security Subcommittee, I have 
made it a top priority to ensure that there is sustained 
congressional oversight and accountability so that all of those 
who risk their lives for the country receive the care and 
respect that they deserve.
    And I have been routinely impressed by the seriousness and 
the vigor that the other members of this subcommittee have 
approached when they are dealing with this issue. It is vital 
that we continue to have open and public hearings and that we 
hear from rank-and-file soldiers, as well as high-ranking 
generals and department heads. We have already had three 
hearings, and today's hearing will certainly not be the last.
    We hope that in the months to come we won't have to hear 
about how Sergeant Shannon had yet another bureaucratic 
roadblock thrust in his way in his 3-year odyssey to navigate 
the military health care system. Rather, we hope to hear about 
how enormously difficult problems were finally overcome with 
dedication, hard work, and ingenuity.
    I want to thank all of these witnesses whose hard work and 
ingenuity will certainly be put to the test as we meet this 
task.
    [The prepared statement of Hon. John F. Tierney follows:]

    [GRAPHIC] [TIFF OMITTED] T2584.005
    
    [GRAPHIC] [TIFF OMITTED] T2584.006
    
    [GRAPHIC] [TIFF OMITTED] T2584.007
    
    Mr. Tierney. I now yield to the ranking member of the 
committee, Mr. Davis, for his opening remarks.
    Mr. Davis of Virginia. Thank you very much, Chairman 
Tierney. And I want to thank the chairman of the full 
committee, Mr. Waxman, for his leadership, and our ranking 
member, Chris Shays.
    At the subcommittee's hearings in March and April, we heard 
about ambitious plans for improvements in the medical 
processing of wounded soldiers, and we heard promises to pursue 
these reforms with urgency. Prior to that, the Government 
Reform Committee heard many similar plans and promises, 
starting as far back as 2004, when we first tried to help 
soldiers caught between systems and policies not designed to 
handle the types and the numbers of wounds inflicted by this 
new global war.
    After so many promises but so little progress, we need to 
start seeing concrete results. I applaud your persistence, Mr. 
Chairman, in pursuing these issues.
    The report of the President's Commission on Care for 
America's Returning Wounded Warriors released in July sets 
forth another list of findings and recommendations for 
executive and congressional action. The Commission also urges 
those reforms to be pursued with a sense of urgency and strong 
leadership. We agree.
    One of the most important of the Commission's 
recommendations restates the longstanding call to overhaul and 
standardize the disability rating systems used by the 
Department of Defense and the Department of Veterans Affairs. 
Every week my staff still hears appalling stories from wounded 
soldiers caught in DOD medical evaluation and physical 
evaluation board processes. They are trapped in a system they 
don't understand and that doesn't understand them. The process 
is seldom the same twice in a row, and often yields two 
different ratings, one from DOD and the other from VA. Having 
to run that double gauntlet causes additional pain and 
confusion, literally adding insult to injury. This has to stop.
    The Commission is recommending a single comprehensive 
standardized medical examination that DOD administrators use to 
determine medical fitness and that VA uses to establish an 
initial disability level. VA would assume all responsibility 
for establishing permanent disability ratings and for the 
administration of all disability compensation and benefits 
programs.
    I look forward to hearing from our DOD and VA witnesses 
today about a firm implementation deadline, details on how the 
integration of these evaluations will occur, and what 
performance standards will be put in place to make sure the 
consolidation serves the near and long-term needs of veterans.
    We will also need to hear more about the Army's medical 
action plan, a road map the Army has created to address patient 
administrative care at Walter Reed and at all Army medical 
treatment facilities. The plan is comprehensive in scope and 
includes stabilized command and control structures, 
prioritizing patient support with a focus on family needs, 
developing training and doctrine, facilitating a continuum of 
care, and improving transfers to the Department of Veterans 
Affairs. These are worthy and long-overdue goals, but at this 
point they seem frustratingly incremental and risk drawing 
energy and resources from the broader systematic changes that I 
think are clearly needed. And even those goals have to be 
viewed with skepticism looking back on more than 3 years of 
quarterly reports, missing deadlines, and glacial progress that 
changed the process but didn't always improve the product for 
the Army's wounded warriors.
    Clearly, the Army has dedicated considerable manpower and 
resources to the new Warrior Transition Units and patient 
services, but better training and clean lines of responsibility 
and accountability are still needed. Diagnosis and treatment 
for this war's signature wounds--traumatic brain injuries and 
post-traumatic stress disorder--are still far from adequate. 
And those looking to find their way home from war are still 
hitting dead ends and a looping, baffling maze of medical and 
physical disability assessment procedures.
    When a truck or plane gets damaged in battle, we fix it. 
Honor demands we do everything possible to fix the most 
precious assets we send into harm's way, the men and the women 
who volunteer to fight for us.
    I look forward to the testimony of all of our witnesses 
today and a very frank discussion on how we can accomplish 
recommended reforms quickly and make sure all of our wounded 
warriors receive the care they deserve.
    Thank you.
    [The prepared statement of Hon. Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T2584.008
    
    [GRAPHIC] [TIFF OMITTED] T2584.009
    
    [GRAPHIC] [TIFF OMITTED] T2584.010
    
    [GRAPHIC] [TIFF OMITTED] T2584.011
    
    [GRAPHIC] [TIFF OMITTED] T2584.012
    
    Mr. Tierney. Thank you, Mr. Davis.
    Mr. Waxman.
    Mr. Waxman. Thank you very much, Mr. Chairman.
    This hearing today is in the tradition of our committee's 
oversight with regard to military health care problems. Long 
before the public ever heard about the problems at Walter Reed, 
under the leadership of Congressman Tom Davis we held hearings 
on the important problems that Guard and Reserve troops were 
having with health care and military benefits.
    Chairman Tierney, your subcommittee held the first hearing 
of the problems at Walter Reed, and you have continued to be a 
leader on this issue. I want to commend you for that.
    In May the full committee had a hearing on the hundreds and 
thousands of soldiers who may be returning from Iraq and 
Afghanistan suffering from PTSD and other mental health 
problems.
    This committee's efforts have helped uncover both new and 
longstanding problems with the military health care system. 
This oversight is some of the most important work that this 
committee does. Few causes are more noble than giving our 
injured soldiers the care they deserve.
    Despite the increased attention, the pace of change at DOD 
and VA is intolerably slow. Again and again we see the same 
thing--blue ribbon task forces like the West/Marsh Commission 
on Walter Reed or the Dole/Shalala Commission on Military 
Health care provide detailed road maps to better care. DOD and 
VA representatives come before Congress and insist that things 
are getting better. Still, the horror stories about problems 
with the military's health care system continue.
    Here is just some of the new and disturbing information we 
have received over the last several months: We learned from the 
Washington Post that Staff Sergeant John Daniel Shannon, who 
testified about his problems at Walter Reed before our 
committee in March, remained stuck in bureaucratic limbo at 
Walter Reed, unable to obtain his discharge, obtain VA 
benefits, or return to his family and pick up his life.
    We received deeply troubling reports from Fort Carson, CO, 
indicating that the leadership there seems to utterly lack 
understanding, basic understanding, of the problems faced by 
ill and injured soldiers. Whistleblowers and investigators and 
struggling families have told the committee that soldiers with 
PTSD and PTI are being dishonorably discharged under the 
pretense of having pre-existing personality disorders. We have 
heard of one soldier who was ordered back to Iraq, despite a 
diagnosis of PTSD and TBI. And we have heard press reports 
indicating that one commander at the base recommended 
discharging mentally ill soldiers simply as a way to get rid of 
``deadwood.''
    We have heard from VA that they have over 1,200 unfilled 
psychologist, social worker, and psychiatrist positions within 
their ranks, and that the VA is unable to provide even the most 
rudimentary estimates of the number of soldiers who will need 
mental health care or the cost for such treatment.
    And we have heard reports from the Army that suicide rates 
among soldiers are at their highest levels in 26 years, while 
20 percent of Army psychologist positions are unfilled and 
morale among Army mental health care providers continues to 
sink.
    We will hear testimony from GAO and others today pointing 
to other persistent or emerging problems at VA and DOD. While I 
am looking forward to hearing testimony from all of our 
witnesses today--and I am happy that we will have at least some 
good news--I continue to be frustrated with the pace of 
improvement, and I worry that after 5 years of war our military 
health care system is over-stretched, with bigger problems 
coming down the line as soldiers are forced to serve more and 
longer deployments in Iraq and Afghanistan.
    In the coming years, hundreds of thousands of soldiers will 
return home and will need DOD and VA care for injuries or 
mental illness. We can't let these soldiers and their families 
down.
    I want to thank you for holding this hearing today. I am 
looking forward to see how we can make things better.
    [The prepared statement of Hon. Henry A. Waxman follows:]

    [GRAPHIC] [TIFF OMITTED] T2584.013
    
    [GRAPHIC] [TIFF OMITTED] T2584.014
    
    Mr. Tierney. Thank you, Mr. Waxman.
    Mr. Shays joined us earlier in the week out at Walter Reed 
and has been consistently involved with this oversight process, 
as well. Do you have an opening statement, Mr. Shays?
    Mr. Shays. Thank you, Mr. Tierney, for your commitment to 
our subcommittee's ongoing inquiry into the medical care for 
the men and women of our armed forces. Previous hearings taught 
us well about the challenges facing our wounded warriors under 
current Army, Department of Defense, and Department of Veterans 
Affairs processes. We heard from many who were failed by the 
system and challenged those responsible to address these 
failings.
    We will do that again today when we question the current 
commander of Walter Reed Army Medical Center about the new Army 
medical action plan aimed at addressing shortcomings at Walter 
Reed and other Army medical facilities.
    In our congressional oversight responsibilities, it is 
important we focus on the Department of Defense's Wounded, Ill, 
and Injured Senior Oversight Committee's efforts to carry out 
the recommendations contained in the President's Commission on 
Care for America's Returning Wounded Warriors, commonly known 
as the Dole/Shalala Consumer.
    In July this Commission released findings that are similar 
to what we found during our committee's initial investigations 
begun in the spring of 2004, and are comparable to those we 
heard from the independent review group this past spring. But 
the Dole/Shalala Commission's recommendations for executive and 
congressional action are more aggressive than those in the 
independent review group. Their implementation will require a 
collaborative commitment from the Department of Defense, the 
Department of Veterans Affairs, and especially from 
congressional committees.
    Most of the real work still lies before us. As recommended 
in the Dole/Shalala report, we must ask some tough questions. 
Can we completely restructure the disability and compensation 
system of the Army, Air Force, Navy, Marine Corps, the 
Department of Defense, and the Department of Veterans Affairs 
in time to help the number of wounded currently in and entering 
the systems? Can we create comprehensive recovery plans for 
every serious injured service member and create a cadre of 
well-trained recovery coordinators for all stages in a wounded 
serviceman's life? Who will be responsible for seeing that 
these plans are carried out between departments? Where will 
this cadre of coordinators come from? How will they be trained?
    We have learned the wounds of war extend far beyond the 
physical, with many patients struggling to cope with the 
devastating emotional impacts of war. One of the most chronic 
outpatient issues for our recovering soldiers has been the 
diagnosis and treatment of traumatic brain injury [TBI], and 
the post-traumatic stress disorder [PTSD]. Central to the 
military creed is the promise to live no soldier or Marine on 
the battlefield, but if we do not appropriately recognize and 
treat all wounds, including the issues associated with post-
traumatic stress disorder and traumatic brain injury, we do 
precisely that--we leave them behind.
    So we ask the question: how will DOD and the VA now 
aggressively prevent and treat post-traumatic stress disorder 
and traumatic brain injury? What standards of diagnosis and 
treatment will be created? Who will pay for this treatment? How 
will DOD and the VA move quickly to integrate medical 
information and data between their organizations in order to 
get clinical data to all essential health, administrative, and 
benefits professionals that need it?
    I look forward to hearing our Government Accountability 
Office witness recommendations about what the Federal 
Government can do to address the needs of our wounded warriors. 
We owe the wounded warrior men and women of our armed services 
and their families, as has been pointed out already, more than 
we have given them to date.
    I am told the President is committed to implementation of 
the Dole/Shalala recommendations, and I know this subcommittee 
is also committed to ensuring we provide the best possible care 
to our brave men and women.
    I look forward to hearing the testimony from our 
distinguished panel.
    I would just close, Mr. Chairman, and again thank you for 
your work on this and the work of your staff and our staff. One 
of my staff received an e-mail from a soldier in Iraq who, upon 
hearing of this hearing this morning, said, ``You, the American 
people, gave us a mission to fix Iraq. We are accomplishing 
that mission. What we expect from you, the American people, is 
to help fix us when we come home broken.''
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T2584.015
    
    [GRAPHIC] [TIFF OMITTED] T2584.016
    
    [GRAPHIC] [TIFF OMITTED] T2584.017
    
    [GRAPHIC] [TIFF OMITTED] T2584.018
    
    [GRAPHIC] [TIFF OMITTED] T2584.019
    
    Mr. Tierney. Thank you, Mr. Shays.
    Now the subcommittee will, in fact, receive testimony from 
the witnesses before us today. I would like to begin by 
introducing the witnesses on our panel. We have John Pendleton, 
Acting Director of the Health Care Department at the U.S. 
Government Accountability Office. With him is Daniel Bertoni, 
Director of the Education, Workforce, and Income Security 
Department at the U.S. Government Accountability Office; Major 
General Eric Schoomaker, M.D., Commanding General of the North 
Atlantic Regional Medical Command and Walter Reed Army Medical 
Center; the Honorable Michael S. Dominguez, Principal Deputy 
Under Secretary of Defense for Personnel and Readiness, U.S. 
Department of Defense; and Rear Admiral Patrick Dunne, retired, 
Assistant Secretary for Policy and Planning at the U.S. 
Department of Veterans Affairs.
    Welcome to all of you and thank you for joining us.
    It is the policy of the subcommittee to swear you in before 
you testify, so I ask you to stand and raise your right hands. 
If there are any other persons who might be assisting you in 
responding to questions, would they also please rise and raise 
their right hands.
    [Witnesses sworn.]
    Mr. Tierney. The record will reflect that all witnesses 
answered in the affirmative.
    Your full written statements, of course, as most of you 
know from previous experience here, will be submitted on the 
record and accepted, so we will ask that your oral remarks stay 
as close as you can to 5 minutes and give us a little synopsis 
of what you have to say.
    Mr. Pendleton, I know that you and Mr. Bertoni come as a 
team, and I understand that you will be presenting remarks and 
Mr. Bertoni may not. In that case, we will give you a little 
leeway on the 5-minutes, as we will for all the witnesses in 
any regard. I thank you and the Government Accountability 
Office for your fairness in your report and the depth of your 
work. I would ask you at this point in time to proceed with 
your testimony.

  STATEMENTS OF JOHN PENDLETON, ACTING DIRECTOR, HEALTH CARE, 
 U.S. GOVERNMENT ACCOUNTABILITY OFFICE, ACCOMPANIED BY DANIEL 
 BERTONI, DIRECTOR, EDUCATION, WORKFORCE, AND INCOME SECURITY, 
   U.S. GOVERNMENT ACCOUNTABILITY OFFICE; MAJOR GENERAL ERIC 
SCHOOMAKER, COMMANDER, WALTER REED ARMY MEDICAL CENTER; MICHAEL 
  L. DOMINGUEZ, PRINCIPAL DEPUTY UNDER SECRETARY OF DEFENSE, 
   PERSONNEL AND READINESS, U.S. DEPARTMENT OF DEFENSE; AND 
 PATRICK W. DUNNE, REAR ADMIRAL, RETIRED, ASSISTANT SECRETARY 
  FOR POLICY AND PLANNING, U.S. DEPARTMENT OF VETERANS AFFAIRS

                  STATEMENT OF JOHN PENDLETON

    Mr. Pendleton. Thank you, Mr. Chairman.
    Mr. Chairman and members of the subcommittee, I am pleased 
to be here today as you continue your oversight of DOD and VA 
efforts to improve health care and other services. As the 
situation in Walter Reed came to light earlier this year, the 
gravity and implications of many longstanding issues became 
clear. I visited Walter Reed last month, as I know many of you 
have, and learned first-hand from many of the soldiers there 
just how far the system still has to go.
    I am pleased to be joined by my colleague, Dan Bertoni, who 
leads our disability work at GAO.
    Mr. Chairman, I would like to ask Dan to make a few 
comments, because he is our disability expert.
    Mr. Tierney. That is fine.
    Mr. Pendleton. I will provide an overview first and then 
turn it over to Dan to focus on disability.
    Mr. Tierney. That is fine. Thank you.
    Mr. Pendleton. Please take note that the findings that we 
are presenting today are preliminary, based in large part on 
ongoing reviews. Much of the information is literally days old, 
and the situation is evolving rapidly.
    Efforts thus far have been on two separate but related 
tracks. First I will cover the Army's service-specific efforts; 
then I will cover the collective DOD/VA efforts.
    The Army is focused on its issue through its medical action 
plan. The centerpiece of that plan is the new Warrior 
Transition Units. The Army formed these to blend active and 
reserve component soldiers into one unit and to improve overall 
care for its wounded warriors.
    While these units have been formed on paper, many still 
have significant staff shortfalls. As of mid-September, just 
over half of the total required personnel were in place in 
these units; however, many of those personnel that were in 
place had been borrowed, presumably temporarily, from other 
units. Ultimately, hundreds of nurses, enlisted and officer 
leaders, social workers, and other highly sought after 
specialists, like the mental health professionals that will 
help with TBI and PTSD, will be needed.
    The Army told us it plans to have all the positions filled 
by January 2008, and it is planning to draw these personnel 
from both the active and reserve component, as well as from the 
civilian marketplace. Filling all the slots may prove 
difficult. As I think everyone knows, the Army is stretched 
thin due to continuing overseas commitments.
    Furthermore, the military must compete in a civilian market 
that will pay top dollar for many of these health 
professionals. This is an area that we intend to monitor 
closely as we continue our work.
    Now if I could I am going to briefly describe the broader 
efforts.
    Through the newly created Senior Oversight Committee, DOD 
and VA are working together to address the broader systemic 
problems. One of the key issues being taken on by the Senior 
Oversight Committee is improving the continuity of care for 
returning service members. In plain English, this is about 
helping the service members move from inpatient to a less-
regimented outpatient status, and navigate within and across 
two entirely different departments, DOD and VA, as well as 
possibly out to the private sector to obtain needed care. This 
can be quite complex.
    To improve continuity, the Dole/Shalala Commission 
recommended that recovery plans be crafted to guide care for 
seriously injured service members and that senior-level 
recovery coordinators be put in place to oversee those plans.
    DOD and VA intend to adopt this recommendation, but key 
questions remain unanswered. For example, it is unclear exactly 
which service members will be served by this recovery 
coordinator, and without an understanding of the proposed 
population it is impossible to answer other fundamental 
questions, like how many recovery coordinators will ultimately 
be needed.
    It is also unclear how the Army's efforts will be 
synchronized with the broader efforts. This is important so 
that service members do not have too many case managers, 
potentially resulting in overlaps and confusion.
    Mr. Chairman, given the complexity and urgency of these 
issues, it is critical for top leaders to ensure the goals are 
achieved expeditiously; however, careful oversight will be 
needed to ensure that any gains made in the near term are not 
lost over time.
    That concludes my part of the statement. With your 
permission, Dan will focus on disability.
    [The prepared statement of Mr. Pendleton follows:]

    [GRAPHIC] [TIFF OMITTED] T2584.020
    
    [GRAPHIC] [TIFF OMITTED] T2584.021
    
    [GRAPHIC] [TIFF OMITTED] T2584.022
    
    [GRAPHIC] [TIFF OMITTED] T2584.023
    
    [GRAPHIC] [TIFF OMITTED] T2584.024
    
    [GRAPHIC] [TIFF OMITTED] T2584.025
    
    [GRAPHIC] [TIFF OMITTED] T2584.026
    
    [GRAPHIC] [TIFF OMITTED] T2584.027
    
    [GRAPHIC] [TIFF OMITTED] T2584.028
    
    [GRAPHIC] [TIFF OMITTED] T2584.029
    
    [GRAPHIC] [TIFF OMITTED] T2584.030
    
    [GRAPHIC] [TIFF OMITTED] T2584.031
    
    [GRAPHIC] [TIFF OMITTED] T2584.032
    
    [GRAPHIC] [TIFF OMITTED] T2584.033
    
    [GRAPHIC] [TIFF OMITTED] T2584.034
    
    [GRAPHIC] [TIFF OMITTED] T2584.035
    
    [GRAPHIC] [TIFF OMITTED] T2584.036
    
    [GRAPHIC] [TIFF OMITTED] T2584.037
    
    [GRAPHIC] [TIFF OMITTED] T2584.038
    
    [GRAPHIC] [TIFF OMITTED] T2584.039
    
    [GRAPHIC] [TIFF OMITTED] T2584.040
    
    [GRAPHIC] [TIFF OMITTED] T2584.041
    
    [GRAPHIC] [TIFF OMITTED] T2584.042
    
    [GRAPHIC] [TIFF OMITTED] T2584.043
    
    [GRAPHIC] [TIFF OMITTED] T2584.044
    
    [GRAPHIC] [TIFF OMITTED] T2584.045
    
    [GRAPHIC] [TIFF OMITTED] T2584.046
    
    [GRAPHIC] [TIFF OMITTED] T2584.047
    
    [GRAPHIC] [TIFF OMITTED] T2584.048
    
    [GRAPHIC] [TIFF OMITTED] T2584.049
    
    [GRAPHIC] [TIFF OMITTED] T2584.050
    
    Mr. Tierney. Thank you, Mr. Pendleton.
    Mr. Bertoni, we would be interested to hear from you.

                  STATEMENT OF DANIEL BERTONI

    Mr. Bertoni. Good morning, Mr. Chairman and members of the 
subcommittee. I am pleased to be here to discuss an issue of 
critical importance: providing timely, accurate, and consistent 
disability benefits to returning service members and veterans. 
Thousands of Operation Iraqi Freedom and Operation Enduring 
Freedom service members have been wounded in action, many of 
whom are now trying to navigate a complicated labyrinth of 
disability policies and often wait many months and even years 
for a decision.
    Various commission reports have noted that overhauling the 
disability evaluation process is key to improving the 
cumbersome, inconsistent, and confusing bureaucracy facing 
injured service members.
    My testimony today draws on our ongoing work and focuses on 
three areas: current efforts to improve the evaluation process; 
challenges to reforming the system; and issues to consider as 
DOD and VA press ahead on this important matter.
    In summary, our prior work has identified longstanding 
weaknesses in DOD's and VA's disability programs, especially in 
regard to the timeliness, accuracy, and consistency of 
decisions. More recently, an Army Inspector General report 
noted similar problems with DOD's system, including a failure 
to meet timeliness standards, poor training, and service member 
confusion about disability ratings.
    In response, the Army developed several near-term 
initiatives to streamline processes and reduce bottlenecks such 
as expanding training, reducing the case loads of staff 
responsible for helping service members navigate the system, 
and conducting outreach to educate service members about the 
process and their rights.
    To address the more fundamental systemic issues, DOD and VA 
area also planning to pilot a joint disability evaluation 
system. The agencies are currently vetting multiple pilot 
options that incorporate variations of: one, a single medical 
exam; two, a single disability rating performed by VA; and, 
three, a DOD-level evaluation board for determining fitness for 
duty. However, at the time of our review, several key issues 
remain in question, such as who will conduct the medical exam, 
how the services will use VA's rating, and determining the role 
of the board.
    DOD and VA recently completed a tabletop exercise of four 
pilot options using actual service member cases. While 
preliminary results showed that no single option was ideal, 
officials told us they were currently analyzing the data to 
determine which option or combination thereof would be most 
effective.
    Although the pilot was originally scheduled for roll-out in 
2007, this data slipped as officials continued to consider 
these important issues, as well as various commission report 
findings and pending legislation which could, in fact, affect 
the pilot's final design and implementation.
    Beyond pilot design issues, DOD and VA face other 
challenges. Three of the options call for VA to conduct the 
medical exam as well as establish the disability rating. This 
could have substantial staffing and training implementations at 
a time when VA, with 400,000 pending claims already, is 
struggling to provide current veterans with timely and quality 
services.
    We are also concerned that, while having a single rating 
could improve consistency, VA's outdated rating schedule does 
not reflect changes in the national economy and the capacity of 
injured service members to work, thus potentially undermining 
the re-integration of returning warriors into productive 
society.
    Going forward, DOD and VA must take aggressive yet 
deliberate steps to address this issue. Key program design and 
policy questions should be fully vetted to ensure that any 
proposed redesign has the best chance of success. This will 
require careful, objective study of all proposed options and 
pending legislation, comprehensive assessment of pilot outcome 
data, proper metrics to gauge progress of the pilot, and 
evaluation process to ensure needed adjustments are made along 
the way.
    Failure to properly consider alternatives or address 
critical policy details could worsen delays and confusion and 
jeopardize the system's successful transformation.
    Mr. Chairman, this concludes my statement. I am happy to 
answer any questions you might have.
    Mr. Tierney. Thank you very much. Thanks to both of you 
gentlemen.
    General Schoomaker, would you care to make some remarks?

           STATEMENT OF MAJOR GENERAL ERIC SCHOOMAKER

    General Schoomaker. Mr. Chairman, Congressman Shays, 
distinguished members of the subcommittee, thanks for this 
opportunity to update you on the extraordinary and heroic acute 
care and rehabilitative and comprehensive support of our 
warriors and families being performed every day at Walter Reed 
Army Medical Center and throughout our Army. I am very proud to 
be here with you today sharing some of the many accomplishments 
of the clinicians, medics, technicians, nurses, therapists, 
uniformed and civilian Army, Navy, Air Force, full-time, 
volunteers--all of those who care for these most-deserving 
American warriors and their families.
    Words, alone, really can't do justice to caregivers at 
Walter Reed Army Medical Center and their colleagues throughout 
the Joint Medical Force for what they do every day in really 
extremely demanding jobs. You have seen them yourself when you 
have been out to visit our hospitals. They are witness to much 
pain and suffering. The pace is constant and unyielding. But 
they recognize that we have the privilege to care for the best 
patients in the world, our young men and women who have given 
of themselves for our country.
    Our patients, as you have seen, are an astounding group of 
warriors who inspire and amaze us every day. Their incredible 
spirit and energy drive our hospitals to the highest level of 
performance and invoke in our health care providers and staff a 
level of commitment and dedication to patients that is 
unparalleled, in my experience. I am constantly impressed with 
the quality and caliber of the health care team at Walter Reed 
and their unwavering focus on caring for these deserving 
warriors and their families.
    I am always careful to point out to all visitors and to 
members of the public and to our elected officials that the 
quality of care, itself, was never in question at Walter Reed 
or any military facility. As you know, my Command Sergeant 
Major Althea Dixon and I joined the Walter Reed leadership team 
in early March. In fact, I took command shortly before you.
    Our focus has been on ensuring that the warriors for whom 
we care get the very best medical care, the best administrative 
processing, and the best support services that are available. 
With worldwide support from the Army leadership and of trusted 
colleague Brigadier General Mike Tucker, a career armor 
officer, a former NCO, and a veteran of both Operation Desert 
Storm and Iraqi Freedom, who set out to correct identified 
deficiencies and provide the very best for our warriors and 
their families, we have received extraordinary support from the 
U.S. Army Medical Command, the entire Army, the senior 
Department of Defense leadership, and the Department of 
Veterans Affairs.
    During the past 6 months we have identified problems and, 
where appropriate, we have taken immediate corrective actions. 
Many involved the creation of support services which were 
present at larger Army installations but weren't available at 
Walter Reed before the events of mid-February.
    The specifics of these changes and the continuing 
improvements are outlined in my formal written statement for 
this hearing. Let me focus on several recent events and key 
people to highlight our progress.
    First, I would like to talk about Staff Sergeant John D. 
Shannon. Many of you know Staff Sergeant Shannon is one of the 
first three soldiers who raised serious concerns about our care 
and support of soldiers like him. He lived in building 18. He 
appeared before this committee at a hearing held at Walter Reed 
in March. He has since met with you and members of your staff 
updating you on his concerns and progress, and, as you alluded 
to, Mr. Chairman, he recently was the subject of a newspaper 
cover story on continuing problems for our warriors in 
transition like him.
    I regret that he declined to be with us today. He is in the 
midst of out-processing, and I trust that he won't take issue 
with my talking about him in an open hearing here to day.
    We have endeavored to work closely with wounded warriors 
like Staff Sergeant Shannon to improve our system of care and 
administrative processes at Walter Reed, and, by extension, 
across the Army and the joint force, and into long-term care 
and continued rehabilitation within the Veterans Administration 
system. We immediately improved the housing conditions for all 
our warriors in transition who were in building 18 and any 
other accommodations that did not meet the highest standards of 
the Army.
    We created a triad of a squad leader, a physician primary 
care manager, and a nurse case manager to ensure the well-
being; provide comprehensive medical oversight; and ensure 
administrative efficiency, timeliness, and thoroughness in the 
care and rehabilitation and adjudication of physical disability 
for these warriors.
    Regrettably, in Staff Sergeant Shannon's case we 
encountered a problem toward the end of his very lengthy acute 
treatment, rehabilitation, and processing of disability which 
resulted in misinformation and fear of unnecessary delays in 
his medical retirement. But his chain of command and the 
support systems embodied in the triad responded promptly to his 
call for help and he underwent all steps on schedule in his 
Physical Evaluation Board process, and he is now out-processing 
from Walter Reed and will be medically retired from the Army.
    Ironically, Staff Sergeant Shannon, in conversations with 
him, did not realize that because the physical disability 
system and the Physical Evaluation Board are separated from our 
squad leaders, that he should not have gone to his squad leader 
to get help. In fact, that is exactly what we would have asked 
him to do, and we have used his example to re-educate people 
about how to get help within our system.
    We truly appreciated his service and his sacrifice. It is 
our obligation, it is, frankly, our sworn duty to heal soldiers 
like Staff Sergeant Shannon.
    Every warrior in transition and every family is a unique 
case and experiences unique challenges. We won't perform 
flawlessly always, but we are hard at work building a team of 
clinicians, military leaders, and case managers and experts in 
all aspects of medical benefits and physical ability 
adjudication to allow us to provide the very best possible 
care.
    Finally, let me talk briefly about efforts to accelerate 
the transition at Walter Reed into a new Walter Reed National 
Military Medical Center at Bethesda and how our work on warrior 
care in the Army is being embraced by the entire joint medical 
community. Our transition is proceeding very well. Rear Admiral 
Promotable Madison of the Navy, who was recently appointed as 
the commander of the joint task force to combine medical 
military operations in the National Capital Region, strongly 
supports the future establishment of a warrior transition 
brigade at the future Walter Reed National Military Medical 
Center in Bethesda, and that may well serve as a model for the 
development of a joint service approach to caring for warriors 
in transition.
    We are also encouraged by recent directions from the Deputy 
Secretary of Defense, Mr. Gordon England, in an August 29, 
2007, memorandum that directs the service Secretaries to use 
all existing authorities to recruit and retain military and 
civilian personnel necessary for seriously injured warriors and 
directing the Secretaries to fully fund these authorities to 
achieve this goal.
    In his memorandum, Secretary England directs the Secretary 
of the Army to develop and implement ``a robust recruitment 
plan'' to address identified gaps in staffing and sufficiently 
fund the Walter Reed budget to pay for these recruitment and 
retention incentives.
    These efforts should help to stabilize the work force at 
Walter Reed and to ensure that our warriors will continue to be 
cared for by the best health care professionals in the world. I 
believe that the actions that we have taken in the last 6 
months will ultimately make Walter Reed and the Army Medical 
Department stronger organizations, more adept at caring for 
warriors and their families.
    We need to continue to address our shortfalls. We need to 
continue to focus on serving our warriors and families, and we 
will continue to improve.
    Thanks for this opportunity to speak with the committee 
today and answer your questions.
    [The prepared statement of General Schoomaker follows:]

    [GRAPHIC] [TIFF OMITTED] T2584.051
    
    [GRAPHIC] [TIFF OMITTED] T2584.052
    
    [GRAPHIC] [TIFF OMITTED] T2584.053
    
    [GRAPHIC] [TIFF OMITTED] T2584.054
    
    [GRAPHIC] [TIFF OMITTED] T2584.055
    
    [GRAPHIC] [TIFF OMITTED] T2584.056
    
    [GRAPHIC] [TIFF OMITTED] T2584.057
    
    [GRAPHIC] [TIFF OMITTED] T2584.058
    
    [GRAPHIC] [TIFF OMITTED] T2584.059
    
    Mr. Tierney. Thank you, General.
    Mr. Dominguez.

               STATEMENT OF MICHAEL L. DOMINGUEZ

    Mr. Dominguez. Thank you, Mr. Chairman. Mr. Chairman, 
Congressman Shays, distinguished members of the committee, 
thank you for the opportunity to update you on the progress we 
have made improving the systems for support and care of our 
wounded, ill, and injured service members and their families.
    I apologize for the tardiness of my written testimony, but 
trust that you will find within it the specific information you 
need in order to fulfill your oversight responsibilities.
    I would like to use this opening statement to make four 
headline points: First, the issues that emerged at Walter Reed 
last February did, indeed, uncover systemic deficiencies in our 
care and support for the wounded, ill, and injured. We failed. 
We acknowledge that failure, and the senior leadership of the 
Defense Department is committed to correcting the system and 
repairing the damage. Secretary Gates has stated that, outside 
of the war, itself, he has no higher priority.
    Next, it is absolutely clear to us that fixing this system 
requires a partnership with the Congress, with the various 
advisory committees, with the Nation's many charitable and 
service organizations, but first and foremost a partnership 
with the talented men and women in the Department of Veterans 
Affairs. Deputy Secretary Mansfield of the VA and Deputy 
Secretary England of Defense established the Senior Oversight 
Committee to forge that partnership. At my level, I believe I 
have spent more time over the last few months with Under 
Secretary Cooper and Assistant Secretary Dunne than I have 
spent with members of my own staff. We are jointly and 
cooperatively working this challenge.
    Third, we have accomplished a great deal. That is 
documented in our testimony. We are doing more every day. In 
fact, only yesterday the two Deputy Secretaries endorsed a plan 
to pilot a substantive revision of the disability evaluation 
system which features a single comprehensive physical exam done 
to VA standards using VA templates and a single rating for each 
disabling condition, with that rating issued by the world-class 
professionals at DVA, and that rating decision being binding on 
the Department of Defense. Integrating DVA into DOD's 
administrative decisionmaking processes is evidence of the 
extraordinary level of cooperation we have achieved.
    Four, while we have accomplished a great deal, there is 
still more to do. We will do everything we can within the realm 
of policy and regulation. Undoubtedly, we will seek 
legislation, but that legislation would be ground-breaking, 
changing the foundations of our current disability systems and 
changing fundamentally roles and responsibilities among 
Government agencies. We do not need from the Congress 
prescriptive legislation addressing the minutia of how we 
execute our responsibilities within current law. We do need and 
welcome your oversight of these areas through hearings such as 
this one and visits such as you conducted earlier this week. 
And when we have formed our ideas about fundamental changes, we 
will bring them to the Congress. In the meantime, we are making 
changes, we are making them fast, and we won't stop until our 
wounded warriors have the support system they deserve.
    Thank you. I look forward to your questions.
    [The prepared statement of Mr. Dominguez follows:]

    [GRAPHIC] [TIFF OMITTED] T2584.060
    
    [GRAPHIC] [TIFF OMITTED] T2584.061
    
    [GRAPHIC] [TIFF OMITTED] T2584.062
    
    [GRAPHIC] [TIFF OMITTED] T2584.063
    
    [GRAPHIC] [TIFF OMITTED] T2584.064
    
    [GRAPHIC] [TIFF OMITTED] T2584.065
    
    [GRAPHIC] [TIFF OMITTED] T2584.066
    
    [GRAPHIC] [TIFF OMITTED] T2584.067
    
    [GRAPHIC] [TIFF OMITTED] T2584.068
    
    [GRAPHIC] [TIFF OMITTED] T2584.069
    
    [GRAPHIC] [TIFF OMITTED] T2584.070
    
    [GRAPHIC] [TIFF OMITTED] T2584.071
    
    [GRAPHIC] [TIFF OMITTED] T2584.072
    
    [GRAPHIC] [TIFF OMITTED] T2584.073
    
    [GRAPHIC] [TIFF OMITTED] T2584.074
    
    [GRAPHIC] [TIFF OMITTED] T2584.075
    
    [GRAPHIC] [TIFF OMITTED] T2584.076
    
    [GRAPHIC] [TIFF OMITTED] T2584.077
    
    [GRAPHIC] [TIFF OMITTED] T2584.078
    
    [GRAPHIC] [TIFF OMITTED] T2584.079
    
    [GRAPHIC] [TIFF OMITTED] T2584.080
    
    [GRAPHIC] [TIFF OMITTED] T2584.081
    
    [GRAPHIC] [TIFF OMITTED] T2584.082
    
    Mr. Tierney. Thank you.
    I want to break protocol here a little bit because I don't 
generally do this, but I think my colleagues would share this. 
I hear the tenor in your voice about not wanting Congress to 
come in with prescriptive legislation, but you have to 
understand what makes it tempting for Congress to do that is 
the utter lack of urgency over a decade that we have sense with 
the Department of Defense and other agencies in the Government 
about getting this job done.
    Nobody that I know of on this panel or anywhere else thinks 
about doing prescriptive legislation if we don't have to, but 
we oftentimes think about giving a foot right where it is 
needed to get things moved, and I will get into it further in 
my questioning and whatever. I am glad to see that you have a 
pilot program that you are finally focused on. We will talk 
about why it took forever to get there, relatively speaking, 
and things of that nature, and what legislation might be 
needed. But do understand that nobody here wants to be 
prescriptive, but the temptation is great when it takes too 
long a period of time to move from one point to another.
    Mr. Shays, do you want to add a comment to that?
    Mr. Shays. Just to say that is an opinion shared on both 
sides of the aisle.
    Mr. Dominguez. Yes, sir, and, again, I acknowledge we 
failed, and fixing the problem is absolutely urgent and 
absolutely a top priority of our two departments' leadership 
and we commit to it, sir.
    Mr. Tierney. Admiral Dunne.

             STATEMENT OF ADMIRAL PATRICK W. DUNNE

    Admiral Dunne. Mr. Chairman, distinguished members of the 
committee, thank you for the opportunity to discuss the recent 
activities of the Department of Veterans Affairs to serve our 
Nation's veterans through improved processes and greater 
collaboration with the Department of Defense.
    Over the past 7 months, I have had the privilege of being 
engaged in many activities dedicated to ensuring our returning 
heroes from OEF and OIF receive the best available care and 
services. I join my colleagues from VA and those from DOD in 
striving to provide a lifetime of world-class care and support 
for our veterans and their families.
    On March 6th, the President established the Inter-Agency 
Task Force on Returning Global War on Terror Heroes. VA's 
Secretary Nicholson was appointed Chair, and I was proud to 
support him as the Executive Secretary. On April 19th the task 
force issued its report to the President. There were 25 
recommendations to improve health care, benefits, employment, 
education, housing, and outreach within existing authority and 
resource levels. The report was unique in that it also included 
an ambitious schedule of actions and target dates. Thanks to 
outstanding inter-agency cooperation, 56 of 58 action items 
have been completed or initiated to date.
    The results are having a positive impact. The Small 
Business Administration launched the Patriot Express Loan 
Initiative. This program, which has already provided more than 
$23 million in loans, provides a full range of lending, 
business counseling, and procurement programs to veterans and 
eligible dependents.
    Other task-force-inspired initiatives will support seamless 
and world class health care delivery. VA and DOD drafted a 
joint policy document on co-management and case management of 
severely injured service members. This will enhance 
individualized, integrated, inter-agency support for the 
wounded, severely injured, or ill service member and his or her 
family throughout the recovery process.
    To assist OEF/OIF wounded service members and their 
families with the transition process, VA hired 100 new 
transition patient advocates. These men and women, often 
veterans themselves, work with case managers and clinicians to 
ensure patients and families can focus on recovery.
    VA also revised its electronic health care enrollment form 
to include a selection option for OEF/OIF to ensure proper 
priority of care.
    Additionally, a contract was recently awarded for an 
independent assessment of in-patient electronic health records 
in VA and DOD. The contract will provide us recommendations for 
the scope and elements of a joint health record.
    As you know, many recommendations have been issued lately 
which center around the treatment of wounded service members 
and veterans. To ensure the recommendations were properly 
reviewed and implemented, VA and DOD established the Senior 
Oversight Committee which has been discussed this morning, 
chaired by our two Deputy Secretaries.
    In a collaborative effort with DOD, VA made great strides 
in addressing issues surrounding PTSD and TBI across the full 
continuum of care. The focus has been to create a 
comprehensive, effective, and individual program dedicated to 
all aspects of care for our patients and their families.
    VA and DOD have partnered to develop clinical practice 
guidelines for PTSD, major depressive disorder, acute 
psychosis, and substance abuse disorders.
    Our Senior Oversight Committee also approved a National 
Center of Excellence for PTSD and TBI.
    Since 1992, VA has maintained four specialized TBI centers. 
In 2005, VA established the poly trauma system of care, 
leveraging and enhancing the expertise at these TBI centers to 
meet the needs of the seriously injured. The Secretary of 
Veterans Affairs recently announced the decision to locate a 
fifth poly trauma center in San Antonio, TX.
    VA and DOD are also working closely to redesign the 
disability evaluation system. As Mike mentioned, a pilot 
program is being finalized to ensure no service member is 
disadvantaged by this new system and that the service member 
receives the high-quality medical care and appropriate 
compensation and benefits.
    This proposed new system will be much more efficient, and I 
have provided additional details in my written testimony.
    Over the last 4 years, VA has increased outreach and 
benefits delivery at discharge sites to foster continuity of 
care between the military and VBA systems and speed up VA's 
processing of applications for compensation. VBA also processes 
the claims of OEF/OIF veterans on an expedited basis.
    Collaborating with DOD, we have accomplished a great deal, 
but there is still much more to do. We at VA are committed to 
strengthening our partnership with DOD to ensure our service 
members and veterans receive the care they have earned.
    I would be happy to answer your questions.
    [The prepared statement of Admiral Dunne follows:]

    [GRAPHIC] [TIFF OMITTED] T2584.083
    
    [GRAPHIC] [TIFF OMITTED] T2584.084
    
    [GRAPHIC] [TIFF OMITTED] T2584.085
    
    [GRAPHIC] [TIFF OMITTED] T2584.086
    
    [GRAPHIC] [TIFF OMITTED] T2584.087
    
    [GRAPHIC] [TIFF OMITTED] T2584.088
    
    [GRAPHIC] [TIFF OMITTED] T2584.089
    
    [GRAPHIC] [TIFF OMITTED] T2584.090
    
    [GRAPHIC] [TIFF OMITTED] T2584.091
    
    [GRAPHIC] [TIFF OMITTED] T2584.092
    
    [GRAPHIC] [TIFF OMITTED] T2584.093
    
    [GRAPHIC] [TIFF OMITTED] T2584.094
    
    [GRAPHIC] [TIFF OMITTED] T2584.095
    
    Mr. Tierney. Thank you.
    Typical of this institution, those are messages for votes 
coming up, I assume, on that. I will be able to get more 
information on that in a moment. What I think we will do is 
start with the questioning and then make a determination when 
we find out how many votes we have whether we will have to 
interrupt the meeting or whether we can try to continue on 
through.
    I want to thank all of you for your testimony. Despite my 
interruption of Mr. Dominguez, I think we are trying to be 
helpful here in trying to move forward on this basis. If there 
was something in the tone or the comment that you made that 
struck a chord there amongst several of us here, but that had 
to do really with urgency. One of the things that we constantly 
have from all of the commissions and from all of the 
conversations with returning people is a sense that there has 
been a lack of urgency over time about dealing particularly 
with the rating system, with the evaluation system on that. 
When I look at how long it has taken for the Senior Oversight 
Committee to stand up and get going on this thing, the 
frustration is palpable. I was just making sort of a broad 
comparison to General Jones' work. He did the Independent 
Commission on the Security Forces of Iraq. He started in May 
2007. They assembled teams, 20 prominent retired and active 
officers, police chiefs, Secretaries of Defense, etc. They have 
organized and attended syndicates. They focused on either 
discrete components or cross-cutting functional areas. They 
were all subject to review of the full committee. They traveled 
widely throughout Iraq, which for anybody is a seriously 
difficult prospect to do in the middle of a war. They 
interviewed hundreds of Iraqi officials, U.S. officials, 
visited sites, and did all that and filed their report in 4 
months.
    We are 7 months into this process, that we all admit is one 
of the major concerns that we have, and we are just now getting 
off the ground. So that is, you know, the lack of urgency that 
I think Members coming back from Iraq and Afghanistan sense and 
the Members here on this dais sense. Why has it taken so long 
to get going on that?
    Now, I will let you answer that in the context of the first 
question I am going to ask. Now we have had the pilot program 
that you announced either yesterday or today, which is good. I 
am glad that is moving forward. We need to know from you a 
little bit more about that pilot program, what it entails, and 
does it address GAO's concerns in terms of personnel. I 
understand from your brief comments that it is going to be the 
Veterans Administration's standards and template on that, so 
that raises the questions, I think, that Mr. Pendleton or Mr. 
Bertoni raised about if you choose that, then you have 
difficulties with the process, itself, at VA.
    The single disability evaluation should make it more 
consistent in disability ratings, but does it have enough 
people involved in the system? Are we going to have the 
personnel? Are we going to take into account the assistive 
technologies and disabled veteran's ability to work, have a new 
system for getting people that can be put into work out there 
and do something about the outdated rating system. Does it 
address that? And how long is this pilot program going to go? 
Why aren't we moving immediately into a final disposition of 
this, if you have done your table tops, you have had your 
analysis, you have dealt with the experts, you have looked at 
the situation and have examined the data? How long is this 
pilot going to go? Why aren't we going right into just getting 
this done?
    I suspect we will give you an opportunity to answer that.
    Mr. Dominguez. Thank you for the question.
    First let me say that if there was anything in my tone that 
was critical, I apologize for it. It was not intended to be.
    The sense of outrage by the Congress and the American 
people is fully justified. Last spring in the demand for 
urgency, fully justified, 100 percent with it, I felt the boot 
had been appropriately applied, and I do want to say that we 
are moving urgently.
    The SOC that meets for an hour a week, has been doing that 
in a decisionmaking forum.
    Now, why it takes us a little longer to get going is that 
we are doing more than the report. In crafting our 
recommendations to the SOC on what we are going to do, we have 
to reach down into the organization and get those people who 
have an equity stake, who have a lot of knowledge and 
experience, and cause them all to try and work through this and 
come together, so it is very much managing an alliance as we 
work through the issues and come to grips with it.
    And then I remind you again of the comments Mr. Bertoni 
made about, here is a bunch of the questions that have to be 
answered, and you have to have the evaluation plans and how you 
are going to do that. Those are the kinds of questions and the 
due diligence we have to put in place before we can launch a 
system.
    So it does take some time to develop the details, to build 
that consensus, and to work through these issues.
    I have to say that each of the military services feel an 
intense need to solve this problem themselves, so when I ride 
in there with Secretary Dunne saying, OK, stand back, guys, we 
are going to fix this, their immediate reaction is, prove it 
first before we let you hurt us more. This is justifiable on 
their part, as well. That is part of the confidence building 
process that we have to use.
    Now, how this process will work, we will use the VA rating. 
The VA rating for the unfitting condition will be 
determinative, and the percentage that they put on that will 
dictate whether a person found to be unfit is separated or 
retired and the level of benefits, just as in the current 
system.
    The pilot we are doing must stay within the context of the 
current law. That includes how the VA does their thing with the 
VA scheduled rating disabilities. The fact that it needs to be 
updated has been acknowledged by the Secretary. I will let Pat 
speak to that. But what we are going to be moving forward with 
is within the current context of law and what we can do by 
policy changes and by bringing the VA talent onto our side of 
the administrative processes.
    Mr. Tierney. And how long do you project the pilot is going 
to be?
    Mr. Dominguez. Sir, because this affects people, it is an 
administrative process that actually issues an outcome that 
affects benefits in for-real individuals, our first step is we 
are going to do the next thing beyond a table top, which is 
actually proof of concept where we walk people who have already 
been through the system and already been issued their benefits 
and their determinations, we are going to walk them back 
through this system and see how those two things compare. Then, 
notionally, in January 2008 we will actually start putting new 
cases through this.
    There is also training associated with it in preparation 
for it. I don't, at the present, have a concept for how long 
that would work. We are going to do it in the Washington, DC, 
metro area first, within a few months, depending on the number 
of people who go through it and the outcomes, we could very 
well begin to scale it up across the Department shortly 
thereafter.
    When and if fundamentally different legislation such as the 
ideas proposed by Secretary Shalala and Senator Dole come, then 
a lot of things would change based on that, so we have to re-
evaluate how we do that.
    Mr. Tierney. We will explore that a little further.
    My time has expired.
    Mr. Platts, would you care to ask some questions?
    Mr. Platts. Thank you, Mr. Chairman. I appreciate your and 
the ranking member's leadership on this issue and the various 
hearings and visits to Walter Reed, and I want to thank all of 
our witnesses, both those on the front lines of trying to make 
these systems work, as well as the GAO colleagues and their 
important oversight work.
    Mr. Tierney. Excuse me, Mr. Platts. I hate to do this to 
you, but there are only 6 minute left to vote.
    Mr. Platts. OK.
    Mr. Tierney. I know you want to record your vote. You have 
a choice. You can stay and I will stay with you, or we will 
both try to make it, or we could go and do the two quick votes 
and be back in 10 minutes.
    Mr. Platts. Do you want to do that, Mr. Chairman?
    Mr. Tierney. Fine. We are going to recess. I apologizes to 
our witnesses for the schedule around here, but we will take 10 
minutes probably maximum and be back here.
    Thank you.
    [Recess.]
    Mr. Tierney. The subcommittee will resume.
    Mr. Platts, thank you for allowing us to interrupt you. I 
think it was a better way to proceed, and hopefully you will 
get your entire 5 minutes again starting now.
    Thank you.
    Mr. Platts. Thank you, Mr. Chairman.
    Again, just let me reiterate to our witnesses my thanks to 
each of you for your efforts on behalf of our wounded warriors.
    When we had our hearing earlier this year, the first 
hearing at Walter Reed, one of the common messages or two that 
I want to try to address in my 5 minutes quickly, one was the 
care, when provided, in the overwhelming instances was 
excellent, but the challenge was the coordination of that care, 
either within the DOD system or the transfer to the VA system, 
and then the second was the transfer of information from DOD to 
VA. I am going to try to address both of these.
    Certainly, that has been the focus of the various studies 
or commissions that have been done, and specific to the Army 
with the creation of the Warrior Transition Units. Then in the 
broader sense the SOC has talked about, I think what you are 
calling recovery coordinators to kind of oversee and be that 
one-stop person for wounded warriors and their family members.
    My concern is, given that is so critical to these 
individuals, these soldiers getting to the right entity for 
their care and not being, as we had heard with Staff Sergeant 
Shannon and others, left to find their own way, the fact that 
we are now more than half a year along the path, and according 
to GAO report about half of these positions are unfilled, and 
even a good portion of those that are filled within the Army 
ranks are temporary, and then with the SOC recommendation it is 
still just a recommendation. We haven't even begun to implement 
this process.
    So I guess if I can start with our two Secretaries first to 
the broad issue on the recovery coordinators, where we stand 
and what is the greatest challenge to getting this up and 
running and to making a difference. Then, General Schoomaker, 
if I can go to you on specific to the Army and the fact that we 
still have so many vacancies in these very critical positions.
    Mr. Dominguez. Sir, I will start.
    I think the first headline I have to tell you is that the 
Army has changed the situation on the ground in these 
hospitals. The triad of care that they are deploying through 
the Warrior Transition Units and stuff is changing the 
situation on the ground. That is the necessary and immediate 
response to soldiers in need.
    Mr. Platts. I know that is the plan, but my understanding 
and I think from GAO is that only 13 of the 38 Army facilities 
actually have those fully staffed, those triads staffed. Is 
that incorrect?
    Mr. Dominguez. I can't dispute the GAO data on it, because 
this plan and the triad and the requirement for it emerged in 
the Army's look internally at what they needed to do, and we 
have given them at the DOD level every support possible and 
every encouragement. In fact, the directive that General 
Schoomaker mentioned about, you know, hire everybody you need 
to hire, use every authority you have to do that in terms of 
this medical unit. So the situation on the ground has changed 
where the Army has been able to respond and been able to staff 
that. Again, challenges remain. More needs to be done. We are 
pouring all the gas on it we can.
    That is also true with regards to the VA/DOD collaboration 
around information sharing and, in fact, people. There are 
people from both departments in each other's facilities 
actually coordinating and managing the transfer of patients and 
information when patients move back and forth between our 
systems, another great example of the partnership stepping up 
to the challenge and changing the situation on the ground.
    At the more global level, at the SOC what we are again 
trying to do is trying to figure out, all right, what else 
needs to be done globally.
    Mr. Platts. And specifically with recovery coordinators?
    Mr. Dominguez. Yes, sir. That is one of the things that we 
are looking at now is the architecture of roles and 
responsibilities and how that all works together, because you 
don't want to disrupt this triad of care. You want to augment 
it and supplement it.
    Mr. Platts. Right.
    Mr. Dominguez. So what needs to be done, how do we do that, 
how do we introduce this new phase, what value-added does that 
new phase bring, and how do you connect them then with the 
triad of care that is going on? So you want to move carefully 
and deliberately, with urgency absolutely, and I hope to be 
able to have something definitive within the next few weeks 
about how we are sorting through the care recovery coordinator. 
In fact, part of that discussion will be at the SOC on October 
2nd.
    Mr. Platts. OK. Mr. Chairman, could General Schoomaker--if 
you could respond in specific to the triad approach and my 
understanding from the GAO information the number of vacancies, 
and your efforts, and what do you need from us, if anything, to 
help fill those positions?
    General Schoomaker. Yes, sir. I appreciate the question.
    First of all, I think Mr. Pendleton made the comment 
earlier that the findings at GAO are preliminary and it gives 
us an opportunity to clarify and to better explain some of the 
data that are reported in this very thorough GAO study that we 
greatly appreciate.
    First of all, warriors in transition, who are these people. 
It is important that you realize that the former terms of med-
holdover don't exist any longer within the Army. We have taken 
all soldiers, active component soldiers and mobilized reserve 
component soldiers, National Guardsmen, Reservists, regardless 
of where they became injured, ill, whether they are combat 
casualties or whether they are, frankly, injured on a training 
base or develop a serious illness in the course of their 
service, we put them all together in a single unit we call 
Warrior Transition Units, and they are called Warriors-in-
Transition.
    The important thing is not where they got injured or ill; 
it is simply that they developed an injury or an illness as a 
consequence of their service and we want to treat them all the 
same.
    We are at this point on the projected glide path to fully 
staff all Warrior Transition Units by the first of January. I 
hesitate to use the word incremental here because it has a bad 
sort of taste in our mouths now, but we are going as quickly as 
we can. The Army has been very, very aggressive about 
supportings, giving us full staff to provide the oversight of 
squad leaders, platoon sergeants, first sergeants, company 
commanders, battalion commanders for these units, and we are on 
a very good glide path to achieve the goal.
    What the GAO heard about and does exist are not casualties 
of war. Every casualty evacuated out of the theater of 
operation or any major illness is immediately assigned to a 
Warrior Transition Unit and is given the term or label of a 
Warrior-in-Transition and is assigned to a unit that is staffed 
with a squad leader, platoon sergeant, company commander, and 
the like.
    What we do have in the Army, however, and have always had, 
is about an equivalent sized, almost brigade-sized element 
distributed throughout our war fighter brigades, divisions, and 
corps, who have a medical illness or an injury that renders 
them at least temporarily unfit or unable to deploy. We now 
have a case-by-case negotiation with their commanders to bring 
them into the Warrior Transition Unit, to call these, to 
embrace them as Warriors-in-Transition and assign them.
    That population is as yet unstaffed for cadre because we 
haven't identified them.
    Mr. Platts. But you have prioritized those from the combat 
operations as far as the staffing, and now you are moving 
through the ranks?
    General Schoomaker. Yes, sir. If you go to every WTU across 
the Army right now, we are at over 50 percent cadre supplied. 
At Walter Reed, frankly, we are at 95 percent. Across the Army 
we are at about 65 percent across all Warrior Transition Units, 
and we are on that glide path to be fully staffed.
    Mr. Platts. OK. Thank you, Mr. Chairman.
    General Schoomaker. Does that clarify?
    Mr. Platts. Perhaps I will have a chance to followup if we 
have additional rounds. Thank you.
    Mr. Tierney. Thank you.
    Mr. Waxman.
    Mr. Waxman. Thank you, Mr. Chairman.
    I want to address this question to Under Secretary 
Dominguez. There have been reports about soldiers who, despite 
physical or mental health problems and against the advice of 
their doctors, have been ordered to redeploy to Iraq. We first 
heard this at our hearing on May 24th, and since then we have 
received additional reports from soldiers at Fort Benning and 
Fort Carson. These reports are extremely concerning, 
disturbing.
    Do you agree that soldiers who are physically or mentally 
ill should not be deployed against the wishes of the doctors 
who are treating them?
    Mr. Dominguez. Absolutely, sir.
    Mr. Waxman. I understand there may be some gray area here. 
Some soldiers have illnesses that are not severe enough to 
prevent them from combat duty; others have mental illnesses 
that can be successfully treated with medication. In some 
cases, the soldiers may even want to return to their units. Has 
DOD put together a policy that governs these redeployments? How 
do you balance the needs of the soldiers, the unit, and the 
military as a whole?
    Mr. Dominguez. Sir, we have given that a great deal of 
thought in these last several months. That is part of some of 
the work of the Mental Health Task Force. I would have to get 
back to you on the record with the policy that governs this. I 
do know that you are screened. People are screened before they 
redeploy. They are screened when they come back and then again 
before they go. People who have conditions that make them 
unable or unfit to serve in combat, in a combat theater, we 
have policies and practices in place where they should not be 
deployed.
    Mr. Waxman. Well, under the policies, as I understand it, 
there is supposed to be a unit commander to have to get a 
waiver from Central Command before they can redeploy somebody, 
and we have one documented case at least from Fort Carson where 
a unit commander sought a waiver to redeploy a soldier who was 
on psychiatrically limiting medications and the waiver was 
denied. And then, despite this denial, the soldier was ordered 
to redeploy and subjected to disciplinary action when he could 
not. This seems to me like a clear violation of DOD policy. It 
was bad for the soldier, unquestionably. It couldn't have been 
good for the unit, either. The soldier is not well enough to be 
in combat, he could present a real danger to his comrades.
    Can you explain why it appears that DOD policy is not being 
followed with regard to redeployments of mentally ill soldiers 
at Fort Carson?
    Mr. Dominguez. No, sir, I am not familiar with that 
particular case.
    Mr. Waxman. Well, could you tell us what steps DOD is 
taking to ensure that the policies are followed? Are unit 
commanders who do not follow the policy subject to disciplinary 
action?
    Mr. Dominguez. Sir, unit commanders who don't follow DOD 
policies, yes, are subject to disciplinary action.
    Mr. Waxman. I know the military is greatly strained, that 
we have people who have been back and redeployments sometimes 
three or four times, but if we are going to redeploy people, at 
least we ought to make sure that they are well enough to be in 
a combat zone.
    The other thing I wanted to ask you about is there are also 
credible reports of systemic problems at Fort Carson with 
regard to wrongful discharges of soldiers with psychiatric 
conditions. The military comes back and says, well, they have a 
pre-existing condition, and therefore they are not going to 
take care of them. They don't accept that this is a mental 
illness problem related to combat. NPR reported on a memo from 
the Director of Mental Health at Evans Army Community Hospital, 
and, according to reports, this memo was written to help 
commanders deal with soldiers with emotional problems, and NPR 
stated, ``We can't fix every soldier, and neither can you. 
Everyone in life, beyond babies, the insane, the demented, 
mentally retarded have to be held accountable for what they do 
in life.'' And the memo goes on to urge commanders, ``to get 
rid of the dead wood.''
    Are you familiar with that memo?
    Mr. Dominguez. No, sir, I am not.
    Mr. Waxman. Well, it appears this memo is advocating giving 
up on some of our mentally ill soldiers. That is certainly not 
a responsible approach. And this business of pre-existing 
conditions discharge, it means that the soldier is discharged 
dishonorably and they can't get access to mental health care 
that they require from the Veterans Administration. That 
doesn't make sense to me. It seems like if a soldier was 
healthy enough to be accepted into the Army, disciplinary 
problems that appear to be related to PTSD should not be blamed 
on pre-existing conditions. These soldiers should receive 
treatment, not blame.
    I would like to get further reports from you on this issue. 
It is certainly not appropriate to discharge soldiers with PTSD 
via this pre-existing condition discharge. I would like to get 
from you for the record, because my time is up but I think we 
need to get this, the DOD policies that prevent soldiers from 
being inappropriately discharged for pre-existing conditions. 
If this is going on, it is certainly an outrage.
    Mr. Dominguez. I am happy to provide that.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2584.096
    
    [GRAPHIC] [TIFF OMITTED] T2584.097
    
    [GRAPHIC] [TIFF OMITTED] T2584.098
    
    Mr. Dominguez. If I might, I do want to call attention to 
Secretary Garon and Chief of Staff General Casey's efforts to 
train the Army on the challenges of combat stress. If you 
haven't seen or heard about the activity they initiated--and 
General Schoomaker can tell you a lot more--a superb effort of 
leaders to make sure that leaders throughout the Army 
understand the challenges of combat stress and how to deal with 
them. I think it is a laudable, commendable, superb effort by 
those two.
    Mr. Waxman. Well, it doesn't seem to be getting through to 
the leaders at Fort Carson, so I think we need further reports 
on whether the Army is actually getting educated or whether 
more paper is just being generated.
    Mr. Dominguez. Happy to do that, sir.
    Mr. Waxman. Thank you, Mr. Chairman.
    Mr. Tierney. Thank you.
    Mr. Dominguez, we will expect some report back on those 
particular incidents that Chairman Waxman discussed in a 
reasonable time. We would appreciate that.
    Mr. Dominguez. Yes, sir. Happy to do that.
    Mr. Tierney. Thank you.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    I want to thank you again for all the work that you have 
done on this issue, both when the original issues came to light 
about the care that our soldiers were receiving, and your 
efforts on this committee have not only made a big difference, 
but have highlighted some solutions that we have been hearing 
today.
    I serve on the Armed Services Committee, the VA Committee, 
and on this subcommittee, so I get three bites of the apple on 
this issue. I was very proud to listen to Senator Dole and 
Secretary Shalala deliver their recommendations to the VA 
Committee and, like many, are very appreciative of their work. 
They have looked to some real solutions and identifying real 
problems.
    I want to echo the comments that others have made about the 
Medical Evaluation Board Processes at DOD, the VA, and the 
recommendations from Secretary Shalala and Senator Dole on the 
problems of the time for the process, the inconsistencies, and 
the lack of coordination between DOD and VA. I think they have 
some great recommendations.
    So many times we look at the streamlining processes instead 
of, as they have recommended, collapsing processes and making 
them thereby more efficient. But in looking at the three 
different committees that I serve on, and the information that 
we receive and how we need to proceed, one of the things that 
this committee has continued to hear in this process of great 
concern is a sense between Reserve components, Guard, and 
active members that there is a disparity perhaps for Reserve 
and Guard members and the level of their care at the 
facilities, the resources that are brought to bear to assist 
them. They have told the committee that at times they feel like 
they are second-class citizens.
    I know that each of you have a concern and a dedication to 
that issue, and I would like to give you an opportunity to 
respond to the feelings of disparity that they have, the issues 
that you do see where there are disparities, and ways in which 
it might be addressed or ways in which you actively are looking 
to address it.
    We will start with the General.
    General Schoomaker. You want to start with me, sir?
    Mr. Turner. Please.
    General Schoomaker. Well, sir, I would say right off the 
bat I think that their perceptions are real, and they are 
certainly justified. I think one of the failures that was 
alluded to by Mr. Dominguez earlier of the Department of 
Defense--and in the Army, we were guilty of the same--is that 
we put in place some structural solutions shortly after the 
first appointments of our Reserve component colleagues. We 
mobilized National Guard and Reserve elements, and when they 
returned or when they were injured or showed up at our 
deployment platforms with illnesses, we segregated them into 
two different populations, med-hold for active component 
soldiers and med-holdover units for the Reserve component 
soldiers. Now, that was done because there are differences 
between the two components when it comes to processing of 
disability and outprocessing in the Army and the like, the 
things that are more arcane than this General can understand, 
quite frankly.
    But I think what that did, unfortunately, was create the 
impression, on both sides, ironically, both the active 
component and the mobilized Reserve component soldiers, that 
they were being treated differently.
    Certainly we will continue to work on this misperception of 
the two groups by creating a Warrior Transition Unit and a 
single term to apply to all soldiers, they are all active duty 
soldiers. Whether they come out of the Reserve component, or 
they are active component soldiers like myself, they are all 
active duty soldiers that are serving the Nation, and, frankly, 
they are carrying a heavy load, and so we are trying in every 
way we can to break down that misconception.
    Mr. Turner. General, I appreciate your commitment to that. 
It is an important issue, and I know that everyone agrees with 
you on the need for your and other's success.
    Would anyone else like to comment on the issue of things we 
need to look at?
    Mr. Dominguez. Sir, if I might, yes, I believe the Army has 
changed the situation on the ground in the military treatment 
facilities at Army installations. We have a continuing 
challenge when we get Reserve and Guardsmen home, as they want 
to do fast, and then they may have trauma and challenges, 
particularly PTSD and the TBI, which sometimes emerge late 
after they have been demobilized back into their civilian 
communities. We have challenges trying to devise and deliver 
programs to help them with the tough, tough challenge of re-
integration, because they are distributed all over the place. 
They are not concentrated at a military facility where we can 
get to them.
    We are working through those challenges. Several activities 
right now are underway in terms of re-integration. Lots of 
work, thinking through with the VA how to reach those people in 
their communities at home and make sure they get care when they 
are back home, and lots of opportunities through TRICARE 
delivery organizations to make sure that they get treated. But 
it is a challenge when we get them back home, making sure they 
get the care and support they need.
    Admiral Dunne. Sir, if I might also comment, in Secretary 
Nicholson's task force we also discovered that, with the Guard 
and Reserve, when they would go home and then try to do the 
post-deployment health reassessment, we found that it would be 
helpful if the local VA medical center was represented at those 
sessions, and so, as a result of the task force, we have taken 
that action to get from DOD the schedule of when those 
reassessments are taking place, and then we task the closest 
medical center to support those events and have VA experts 
available at those sessions.
    So we are aware of potential problems, Guard and Reserve, 
and we are working hard to try to find solutions to the process 
to alleviate those.
    General Schoomaker. Let me add one additional comment to my 
earlier comments.
    When we have looked very carefully at one of the critical 
steps in adjudication of disability for both Reserve component 
and active component soldiers, you need to understand, 
Congressman, we have not found any systemic evidence that the 
two are treated differently at that level. I think much of what 
you are describing is a perception at our facilities. What Mr. 
Dominguez said and what the Admiral said is exactly right--when 
they get back out to their communities, it is very hard for us 
to reach out and touch them, and we are working very actively 
to try to find the resources necessary to extend that care.
    But certainly at the point of separation and adjudication 
of disability, Reserve component soldiers sit on the boards 
that adjudicate their disability, and we have found no 
evidence, in looking back at those adjudications, that there is 
any systemic bias.
    Mr. Tierney. Thank you, Mr. Turner.
    Mr. Bertoni. Excuse me. Can I offer up just a quick 
observation?
    Last year we actually did a study for the Armed Services 
Committee where we were asked to look at disparities in the 
ratings system for Reservists and active duty. We did a very 
sophisticated analysis of outcomes, and it is true we couldn't 
find a real disparity between the ratings level between Army 
active service members and Reservists, but we did find that the 
Reservists were less likely to receive disability retirement 
benefits as well as lump sum benefits. The data was 
insufficient for us to determine the reasons for that. It just 
wasn't available.
    We think a couple of things were going on. I think one of 
the things was the 8-year pre-existing condition rule. A 
Reservist entering the service in 1985 fulfilling all the 
obligations of his commitment or her commitment going on a 1-
year tour of Iraq and Afghanistan, by 2005 that person would 
only have 6.9 years of creditable service and would fall within 
the 8-year pre-existing condition rule, so that is certainly a 
factor.
    Generally, time and service would come into play also. If 
they didn't have the 20 years, they certainly wouldn't get the 
20 years in that period of time based on based on Reserve 
status.
    I testified before the Dole/Shalala Commission on this 
issue and brought forth a couple of points.
    There are 26,000 service members assessed through DOD's 
system in 2006 or 2005. One in four of those was a Reservist, 
so not only do we have more Reservists making up a larger share 
of our military force, but we also have more Reservists coming 
in and seeking disability services, so I think we really need 
to look at our policies currently and whether they are serving 
the Reservists.
    Mr. Tierney. Thank you.
    Thank you again, Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Tierney. Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chairman. Thank you for the 
followup that you have been doing on this issue, because quite 
often it comes to light and then there is a lot of excitement 
and people are making plans, and then no one follows up to make 
sure the plans actually are implemented, so thank you so much 
for this hearing. I thank the gentlemen here today for their 
testimony.
    I am not a stranger to the VA system. My father was a 
disabled vet. I am a regular fixture quite often at our VA 
facility in Minneapolis. I would like to commend the work that 
I have seen done in the poly trauma units, the lessons learned 
from the roll-outs as the units have gone through, the video 
linking with the families being present and the doctors 
speaking to one another with the patients. So there has been a 
lot of work done in there because basically you were starting 
from ground zero, so you could kind of invent the platform that 
you wanted to work off of using updated technology.
    But that is not necessarily the case you see in the other 
parts of the VA system. One area, even in the poly trauma unit, 
that I am concerned about is the Department of Defense person 
that is assigned there to make sure that the flow of the 
paperwork goes forward. Most of that time that person is there 
for 3 months. It is not a career maker to be assigned to that 
unit, and so there even might be people who look at this as 
something that, if they can get transferred out of quickly, 
that they will. I think that service in that unit has a lot to 
offer for families.
    The Marines, however, have decided to make this a priority, 
and the Marines that I have spoken with at our facility in 
Minneapolis are planning on being there for a year.
    My comments now shift more to GAO. One of the things that 
we heard Mr. Dominguez say is, as we go through with the 
disparities rating, DOD is looking at moving forward with the 
VA disability rating. I turn my attention to page 17 of the GAO 
report, and there are two things on there I would like to have 
you comment on. One is the lack of confidence that our service 
men and women often have in the disability rating system, both 
in DOD and possibly VA. And second is the way in which the VA's 
rating system needs to be updated to reflect what is currently 
going on in today's labor market. Maybe if you could even 
comment, I had many people I case worked with, airline 
mechanics receive shoulder injuries, arm injuries, they were 
very concerned about their ability to return back to work and 
return back to work at a level which would allow them to move 
forward.
    The other issue I would like to see addressed, and DOD and 
VA keeps talking about their plans. You folks did the study. I 
haven't seen any budgets on how these plans are going to be 
implemented. I mean, we need to know. I serve on the 
Appropriations Committee. We need to know what we should be 
setting aside to appropriate to make these plans become a 
reality, both in the transfer of technology and what this is 
going to mean to staffing personnel.
    Mr. Chairman, the buzzer is going off, but I would just 
also like to bring to the Chair's attention there is concern 
that traumatic brain injuries might lead to epilepsy for some 
of our service men and women later on in life, and my 
understanding is the VA, where they are in working with NIH to 
make sure that this is addressed and is not considered a pre-
existing condition, ignoring that.
    Thank you, Mr. Chair.
    Mr. Tierney. Thank you very much, Ms. McCollum.
    Mr. Lynch, do you have any objection? Mr. Hodes apparently 
has another meeting to go to and he has asked to ask a question 
before he leaves. Does that fit with your schedule, or do you 
also have a place to go?
    Mr. Lynch. Well, we have votes.
    Mr. Tierney. We have two people to question before we go.
    Mr. Lynch. I'm sorry?
    Mr. Tierney. We have both Mr. Hodes and you, will you be 
able to get your questions in before we go.
    Mr. Lynch. Yes. I have no problem.
    Mr. Tierney. Great.
    Mr. Hodes, please proceed.
    Mr. Hodes. Thank you, Mr. Chairman, and thank you for 
holding these hearings.
    As you are all aware, these matters first came to 
prominence with articles about substandard care at Walter Reed 
that appeared in the Washington Post, and among the results of 
the articles and initial hearings was the testimony by Sergeant 
Shannon, who had lost an eye, suffered head trauma, and 
testified about languishing at Walter Reed for 2 years, and he 
talked about the difficulties he had had.
    Now here we are in September, with all the attention that 
has been paid. We met Sergeant Shannon on Monday. He is back in 
the newspapers again. There was an article about his retirement 
papers having been lost, and he is now going to have to wait 
until December or January before he can retire.
    The subcommittee went to Walter Reed on Monday, and we 
thank you, General Schoomaker, for briefing us and for telling 
us about your efforts. We had the opportunity to meet with a 
large group of soldiers in a room without brass, and we heard 
horror stories from them. They told of case managers who are 
unqualified, not doing their job, not up to the task. They told 
us of delays in pay or not receiving the awards due to them for 
their service to the country. They told about continuing to 
languish at Walter Reed for months or years. They told about 
continuing problems with scheduling medical appointments so 
that they were basically jerked back and forth about their 
scheduling. One soldier said to us sarcastically, ``Walter Reed 
was the best place I have ever been incarcerated.''
    When we asked them whether they prefer to go back to Iraq 
or be in Walter Reed, nearly all of them said they wanted to go 
back to Iraq.
    I have a constituent who turned to me to help him because 
he has been experiencing the same kind of thing on an ongoing 
basis, and I have been advocating for him within the system. He 
had to turn to his Congressman to advocate for him within this 
system.
    The Army apparently will agree that Walter Reed's problems 
are a microcosm of those found throughout the Army. I would 
like to know first why are these horror stories still 
continuing as of our visit on Monday, No. 1?
    No. 2, I would like to move on to questions about the case 
management system. But why are we still hearing this?
    General Schoomaker. Well, I think that is a difficult 
question. You met with 31 or 34 soldiers, I believe, on Monday 
when you went a self-selected group of soldiers, in large 
measure, who wanted to talk to you. We have 680 soldiers in 
that category right now at Walter Reed, and so you have seen a 
subset of the whole population.
    I would venture to say that every one of the soldiers that 
you saw has an individual case with an individual set of family 
or personal problems and we have to work through each and every 
one of. This is a difficult time in the lives of all of these 
soldiers. We acknowledge the fact that we start off in a 
difficult position with them trying to establish trust and a 
relationship. They have gone into the Army, or in some cases 
they have gone overseas, and have come back not the same people 
that they went. We start at a disadvantage. We try to rebuild 
that relationship, but we aren't always successful in 
overcoming all of the problems these soldiers face.
    All I can tell you, Congressman, is if you give me details 
about each and every one of them, we can address them through 
the devices that we have, acknowledging that we continue to 
seek solutions to this single adjudication process that has 
already been alluded to by our leaders within the DOD and the 
VA. That still represents and represented for Sergeant Shannon 
one of his hot button points, as they approach the final 
adjudication of their disability, it elicits enormous anxiety 
and resentment about their service and how we are treating them 
and how we as a Nation see their service.
    If you give me details about any of those horror stories, 
sir, I will personally take them on.
    Mr. Hodes. Is it your testimony that the soldiers who we 
visited with on Monday are not representative of the active 
duty outpatient population at Walter Reed now?
    General Schoomaker. Yes, sir. I would have to say that is 
true. I was placed in that position to solve the problems of 
Walter Reed, and if at the end of this period of time, with all 
the efforts that we have put into it, if all of the soldiers at 
Walter Reed are characterized by what you just described, I 
would say that I have been a failure as a commander and I 
should be held accountable.
    This is not the general rule. I can't say that every 
soldier is happy with what is going on in their lives. As I 
explained before, they start at a disadvantage. They have come 
back ill or injured. They are going back into communities, some 
of them unable to resume their employment. But no, sir, I would 
not say that this characterizes the rule for our soldiers.
    Mr. Hodes. I see my time is up.
    The only comment I would make, General, is I appreciate the 
task that you have undertaken in trying to reform the way 
things are done, but I suggest to you that if there is one 
horror story at Walter Reed, then there is room for 
accountability, and it should not be up to Congress to tell you 
who is having problems, but for you and your staff and the case 
managers to find out who is having problems and address them as 
quickly and completely as possible.
    Thank you, General.
    Mr. Tierney. Thank you, Mr. Hodes.
    Mr. Lynch.
    Mr. Lynch. Thank you, Mr. Chairman.
    I want to thank the panelists for attending, as well, 
helping the committee with its work.
    I have a couple of questions, and they are related.
    As previously noted by the GAO in its March 31, 2006, 
report, the Department of Defense grants each of the branches 
of the service considerable discretion in how it evaluates 
disability. That is with, one, respect to a determination of 
whether the service member is fit to duty, and second, with 
respect to the assignment of disability ratings. Specifically, 
each branch of the armed services manages its own physical 
disability evaluation system, which includes the MEB, the 
Medical Evaluation Board, and the PEB, the Physical Evaluation 
Board.
    I asked the Department of Defense to send me the numbers on 
how each branch of the service handles these evaluations for 
disability. I was surprised. Well, maybe I shouldn't have been, 
but I was. When you take the Navy's numbers, and those include 
the Marines, they basically had determination rate of about 35 
percent, either totally or temporarily disabled, 35 percent for 
the Navy. The Air Force has about 24 percent. The figure that 
really stood out to me was the Army. The Army has about 50 
percent of all of the disability claims before it, and it 
approves only 4 percent. That is 4 percent compared to the 
other branches for permanent and then 15 percent for temporary 
disability.
    Now I hear today from Mr. Dominguez that we are going to 
merge the standards of the DOD with that of the VA, and I think 
it was Mr. Bertoni who said earlier today the VA has a 400,000 
case backlog. I know from my own personal experience dealing 
with my veterans back home in the Ninth Congressional District 
of Massachusetts that I have typically an 8-month waiting 
period before one of my vets can go see a doctor, a VA doctor. 
I am afraid of that, you merge two systems.
    I associate myself with the remarks of Mr. Hodes earlier. 
We met with 30 to 35 soldiers at Walter Reed on Monday who were 
very, very unhappy, and the chief complaint, if I could 
generalize, was the mind-numbing bureaucracy that they have to 
deal with in getting treated with dignity and respect and 
having their cases resolved.
    It varied. Some felt they shouldn't be there, they were 
fine, and they wanted to go back with their units. They wanted 
to go back as war-fighters. Others were being held for more-
extensive injuries. There were some amputees who certainly 
needed to be there, but also needed to have their cases dealt 
with in a more expeditious manner.
    Given the different standards here, you have a military DOD 
system that evaluates a soldier based on their fitness for 
duty, given their rank and their responsibility. That is the 
DOD standard. The VA system is looking at their employability 
as a civilian and they are basing their disability evaluation 
on that standard.
    When you merge these two, I am afraid you are going to 
discount the first, Defense Department disability based on 
their actual injuries, and you are going to moderate that 
because you are going to find some type of employability on the 
other end. I am just very concerned about the merger of these 
standards. I want our war-fighters to be treated with the 
dignity and the respect that they deserve, but I have to raise 
a fair amount of caution here because of the two standards.
    Let me throw it out to all of you. How do we basically, No. 
1, eliminate the disparity between the Navy, the Marines, the 
Air Force, and the Army, and then at the same time reconcile 
the differences between the two standards, one a civilian 
standard and one a military standard in evaluating these 
disabilities?
    Mr. Tierney. Mr. Lynch, if I can interrupt for a second, I 
am going to give you the option to pick one and ask them to 
answer in 30 seconds. You have 3 minutes to vote. We will come 
back and you will be the first to address them when we come 
back.
    Mr. Lynch. OK. I pick the first one.
    Mr. Tierney. What is that?
    Mr. Lynch. We are going to come back?
    Mr. Tierney. We are going to come back.
    Mr. Lynch. Why don't we come back?
    Mr. Tierney. All right. Thank you all very much. Another 
10-minute interruption for votes, and we will see if we can get 
there in 3 minutes or not. Thank you.
    [Recess.]
    Mr. Tierney. The subcommittee will resume.
    Mr. Dominguez.
    Mr. Lynch. Would you like me to restate the question, Mr. 
Chairman?
    Mr. Tierney. No, thank you, Mr. Lynch. It was a 5-minute 
question.
    Mr. Dominguez, go right ahead.
    Mr. Dominguez. Sir, let me first address how this process 
will work. The first is that there will be a single, 
comprehensive medical exam, and it will be done to standards 
using a template that the VA provides so that we can make sure 
we document the medical condition, each and every medical 
condition in it, so it is documented. So if there is an issue 
with a joint, then the circumstances around it and the degree 
of flexion of the joint, and those kind of things, are all 
documented so that the down-stream actions can all be taken and 
formed by that.
    That exam will go to a PAB--Personnel Evaluation Board--
which is military members who will use that information and 
look at the medical conditions, and bump that against the 
standards for performance of a job within a unique individual's 
service and within a skill and within a grade and specialty. So 
the decisions then are being made based on a medical 
description against a service specified standards for this 
individual to do his or her job.
    Once that evaluation board determines that the individual 
is unfit and will likely have to leave the service, that case 
file is then forwarded to the DVA rating examiners. It is only 
at that point that a rating is associated with the condition. 
That comes back to DOD for one decision only, which is, ``Are 
you separated or retired?'' That is how we would use it in our 
process. And, of course, the current law provides the degree of 
retirement pay you are entitled to. This is also a function of 
the degree of the disability above 30 percent. At 30 percent 
you are retired. Above that, it affects how much you are paid 
in your DOD retirement annuity.
    Of course, you have all the appeal rights, etc., but that 
is how we would use it. So we are using medical information to 
make this military determination, and that determination is 
different by each service, because each service standard for 
what is required to do the job is different and unique.
    You can be an airman with an injured back but not an 
infantryman, because you wouldn't be able to carry the 
rucksack, for example.
    I hope that answers your question sir.
    Mr. Tierney. Ms. McCollum, did you want to ask Mr. Lynch to 
yield?
    Ms. McCollum. Yes. Mr. Lynch, would you yield?
    Mr. Lynch. I would. Yes.
    Ms. McCollum. Explain to me how the National Guard gets 
figured into that, which was part of my questions that I had 
asked earlier. I am a highly trained airplane mechanic. I am 
called up, active duty. Let's say my shoulder is destroyed. I 
can't go back to work as an airline mechanic any more. What do 
you do for that individual?
    Mr. Dominguez. Ma'am, there were two parts to the question. 
Assuming you were a National Guardsman airplane mechanic in the 
Guard and we found your condition unfitting and determined that 
you needed to be retired, just like any member of the armed 
forces, you would then be retired by the Disability Board. You 
would be given a retirement annuity based on the level of 
disability--in the pilot, again, assigned by a DVA rating 
panel. Then, by that time the VA will already have your 
records. They will have already determined the degree of 
disability. You would be then compensated----
    Ms. McCollum. Excuse me, Mr. Chairman. I am not talking 
about somebody who was an airline mechanic and that was part of 
their job in the National Guard. We have people who are DOD 
employees who do an excellent job of maintaining aircraft to 
St. Paul/Minneapolis and Homeland Field in St. Paul. I am not 
talking about those. I am talking about the gentleman who was 
called up for active duty who works for Northwest Airlines and 
can't go back to work. What do you do for that individual?
    Mr. Dominguez. Once they are retired from the DOD they then 
go to the DVA, and it is Admiral Dunne's challenge at that 
point.
    Mr. Tierney. Nice hand-off, Mr. Dominguez. I have to hand 
it to you, that was good.
    Admiral Dunne. When the claim is filed and the medical 
condition is evaluated in accordance with the VA templates, not 
only the shoulder, but any other condition which the veteran 
identifies and we have a medical evaluation of is taken to the 
ratings schedule, and based on the ratings schedule the 
disability percentages are applied for that veteran for every 
item that they claim.
    Mr. Tierney. Thank you.
    Mr. Shays.
    Mr. Shays. I thank you, Mr. Chairman, again for doing this 
hearing.
    I am somewhat conflicted by the challenge that you have to 
face, General, and the others. When we came and met on Monday I 
felt that I was meeting with a representative group of 
traumatic brain injury soldiers, and others, dealing with some 
very real, as they said, mental issues. I didn't feel we were 
dealing with some of the other physical challenges. So to that 
extent I do agree it is not representative, but it is 
representative, it seems to me, of those who are dealing with 
brain injuries and so on.
    On one side we had a group that was complaining that they 
weren't being discharged, and on the other side we had people 
who were afraid that someone might say something was wrong with 
them and they couldn't go back into the service.
    I tried to put myself in the position of a doctor. If you 
believe that some are there because they are soldiers and 
Marines and others and they want to go back, but they may not 
be well enough to go back, I am struck with the fact that as a 
physician you have a difficult task. You have to try to see who 
is not qualified to go back and who need to be discharged, and 
neither side may like your outcome.
    Now, the one thing that I was struck with, though, there 
was one physician in particular. One doctor that almost 
everyone there, anyone who came in contact with him--no one 
defended him--that he was disrespectful, biased against Guards 
and Reservists, and some said incompetent. We have heard 
complaints about this doctor by others, because our staff does 
extensive work. Evidently he seems to be a key player, and I 
have a feeling, General, that you may know which one this is 
because there is one who clearly gets a lot of complaints.
    Without discussing the individual, what is the argument 
that he still is there?
    General Schoomaker. Well, first of all, let me just make it 
very clear, the two points you have made I think are very good 
ones. Virtually every soldier I have ever met in a military 
hospital, even our amputees under the most desperate 
circumstances, wants to go back to war, wants to go back where 
their colleagues are. It is heartbreaking to have to tell 
people that they cannot serve in the capacity that they came 
into the service, especially when they are leaving an active 
theater war.
    It is very difficult to work with patients who have a 
variety of disabilities and problems that are going to keep 
them out of that. Frankly, that doesn't fall to the physician 
or to the medical community. In general it falls to the line 
commander who is part of that equation.
    Mr. Shays. It is difficult. I just want to interject 
myself. When you hear of people being there for a year, 18 
months, you begin to think there clearly are some breakdowns 
there, I just want to say parenthetically.
    General Schoomaker. I mean, again, I am very careful about 
not making generalizations, because as I have said in many 
forums, every patient and every family is different.
    One of our heroes is Retired General Freddy Franks, who 
came back from Vietnam and ultimately lost a portion of his 
leg. He was 21 months in an Army convalescent hospital at 
Valley Forge and returned to duty. He ended his service as a 
four-star general. He was the Corps Commander that took the 
Seventh Corps in the first Gulf war into Iraq. So every time I 
am given a timeline to hold a soldier to, I am always pointing 
out that is not fair.
    Mr. Shays. What about this doctor?
    General Schoomaker. The doctor in question, his care has 
been looked at very carefully by other physicians in his 
practice, and his care objectively has always been determined 
to be appropriate. What I was led to believe was that he was 
taken out of the front line of caring for these patients.
    I will have to go back, sir, and just confirm whether they 
are talking about prior events and encounters with him. What we 
have moved toward very, very firmly at Walter Reed and across 
the Army are dedicated, in a sense, institutionalized MEB 
doctors--Medical Evaluation Board doctors--whose specialty, in 
a sense, is to take care of the Medical Evaluation Board. But I 
will take that question and get back to you for the record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2584.099
    
    [GRAPHIC] [TIFF OMITTED] T2584.100
    
    Mr. Shays. I see a yellow light, but let me ask this: In 
regards to the Board, there seemed to be tremendous fear on the 
Board. Is that simply because the Board basically plays God on 
what happens to these individuals?
    General Schoomaker. You are talking about the Physical 
Evaluation Board, sir?
    Mr. Shays. Yes.
    General Schoomaker. Yes, sir. I think for the average 
soldier this is especially true. Ms. McCollum I think hit a 
very important point. I mean, soldiers come in. They are 
declared unfitting for the service and for the role that they 
play in the service, but they go back into other civilian 
roles. They can't go back. Maybe they come in and serve as an 
infantryman, but they are going to go back and walk a beat as a 
policeman or woman. What they face is what is going to be life 
for them now and their family.
    They know that there is a threshold of 30 percent 
disability. The 30 percent disability renders them eligible for 
TRICARE healthcare benefits for themselves and for their 
family. Everybody knows within my hospital, and everybody 
within the Medical Evaluation Board system knows, about the 30 
percent, but if the unfitting condition that renders you unfit 
to serve in whatever capacity you are that only gives you 10 or 
20 percent, and by policy and by law, as I understand it, we 
are limited to that even if the VA later adjudicates all of the 
associated injuries or illnesses as giving them more than 30 
percent. We are held to the unfitting condition, and so they 
may be separated with a single lump payment, and no healthcare 
benefits for their entire family that they would get if they 
reached the 30 percent disability rating.
    I think that is going to remain a hot button item under any 
disability evaluation system that we have, and that has to be 
resolved.
    Mr. Shays. Just an ending comment. Thank you, Mr. Chairman. 
That did come up continually about their health benefits. Their 
health benefits almost seemed more important than any financial 
benefit they get, and it may behoove us to look at that issue 
and see what kind of flexibility could take place.
    Mr. Tierney. Thank you, Mr. Shays. And it was a point that 
came up again and again, and that adversarial nature is what 
results from that. I mean, I think that we are going to look at 
that as part of that, look and see whether or not on the other 
end coming out, whether something can't be done with 
healthcare, work on that.
    Is there any member of the panel that would like to ask 
another question, that feels some business has gone unfinished 
from their perspective?
    Ms. McCollum. Are they going to answer the questions that I 
asked before you started collectively gathering the questions?
    Mr. Tierney. If you have another question you want to ask, 
or you don't feel was responded to, you could ask it here if 
you like.
    Ms. McCollum. They didn't have an opportunity.
    Mr. Tierney. Well go ahead and ask.
    Ms. McCollum. I had asked about refreshing the VA's 
disability standards. The distrust that kind of exists between 
the servicemen and women with the Disability Rating Board, and 
I think that came forward because most people get turned down 
the first time. That has been my experience quite often, and 
they are going through an appellate process and it is long and 
it is cumbersome. So you would need some suggestions on that.
    And then the other question I had to kind of capsulate, so 
we can wrap up is: all of these plans and programs that have 
been put in place at the hospitals for the poly trauma unit, 
for having the case worker be there--and I am probably using 
the wrong term now--the Department of Defense person there, to 
help with the paperwork and to move things forward being there 
longer than 3 months. The budget being built in for all these 
new people that are being added as case workers, the money that 
is going to be needed to update these systems so that they are 
workable for transferrable records and make it seamless for the 
soldier, their families, and the doctors involved. I haven't 
seen a budget for that.
    I have seen plans, lots of ideas, things being painfully 
implemented, in a slow process. But this Congress needs to have 
a budget so that we do it right, because I am assuming that the 
Department of Defense or the VA can't take this ``all out of 
hide.'' These are big price-tag items, and I am on the 
Appropriations Committee, and to the best of my knowledge I 
haven't seen a budget for them. So I was asking for the 
gentleman here who conducted the review to let me know what 
they thought about that.
    Mr. Pendleton. We haven't seen the budget figures either. 
Our understanding is that the costs, the incremental costs, 
will be included as part of the President's budget. That is one 
of the initiatives of the Senior Oversight Committee, and you 
have representatives here. We have outstanding requests for 
that, but we honestly at this point don't know.
    Ms. McCollum. Mr. Chair, could I ask DOD and VA? It has 
been ongoing. It has been 10 years since you have been going to 
integrate your records. Certainly you have a budget some place 
that we can look at, and look at today. Do you not?
    Mr. Dominguez. The budget that supports the integration and 
the sharing of information in the medical organizations is 
funded. It is part of the budget that was submitted in 2008. It 
is in the TRICARE piece of the budget. I will get back to Dr. 
Fissells. We can try to pull that out for you for the record.
    They will be certainly in the 2009 President's budget 
submission changes to that, because we will be accelerating 
those activities.
    In the case of the standing up to Warrior Transition Units 
and those kind of staffing and those issues, because that 
happened in 2008 the DOD and the services took that ``out of 
hide'' in terms of reprogramming in 2008. There may have been 
something in the supplemental that helped us. In fact, the 
Congress appropriated a huge amount for TBI and PTSD--for which 
we are deeply grateful--which really did accelerate a lot of 
the thinking and the activity and our ability to respond to 
those crises.
    But in the 2009 submission of the President's budget, we 
will make sure that these activities are called out to your 
attention when the President submits that budget to you.
    Ms. McCollum. Mr. Chair, could I ask GAO then why weren't 
you able to get the budget numbers?
    Mr. Dominguez. I was referring to future estimates for the 
new initiatives. I don't know that they have been created yet.
    Mr. Tierney. Thank you.
    Mr. Shays, do you have a couple of final questions?
    Mr. Shays. First off, the GAO has really pointed out that 
DOD and the VA have been trying to work for 10 years to 
integrate and to share information, and there has to be a point 
where there is going to be some success here. The only thing I 
can conclude is it is just simply not a high priority.
    I would like to ask GAO two questions: what do you believe 
are the greatest challenges to the implementation of each of 
the recommendations of the Dole/Shalala Report, and by each of 
them just give me some of the highlights, because we have been 
here very long? So what do you think are the greatest 
challenges to the implementation of these recommendations?
    Mr. Bertoni. Of the Dole/Shalala Report?
    Mr. Shays. Yes.
    Mr. Bertoni. In hearing the VA testimony, I took down some 
notes. It looks as though they have gone with a single 
comprehensive exam done to VA standards using VA templates. So 
we call that the Dole/Shalala light option of the four that we 
looked at. All the other options had the VA doing the exam as 
well as the rating. So it looks like they are moving toward the 
Dole/Shalala portions that don't have to be addressed in 
legislation, which is a single exam and a single rating.
    I think folks on both sides agree that is probably the way 
to go. They had the single exam, and had the single rating.
    In terms of the two bureaucracies, I think there might be 
some push-back or concern as to who should actually have it in 
the end. I mean, changing management is going to be difficult. 
I think you need management support at the top. You need a 
plan. You need change agents within the agency to sort of 
convey to the troops and the bureaucrats that we are moving in 
this direction, and you need some early wins. If they go in 
this direction and implement the pilot, if they could show that 
they have substantially decreased timeframes, that is some 
early wins that can gain momentum. So that can help.
    I am concerned that they may not be paying enough attention 
to accuracy and consistency, sort of the three-pronged issues 
that we have identified. If the system is not viewed as being 
accurate and consistent, we are back to service member 
distrust, congressional oversight, all these things that 
brought us here today. So that is certainly an issue.
    Generally, getting in front of the implementation before 
considering all of the unanswered questions is of concern to 
us. We would be interested in seeing how they arrived at this 
decision--the data that drove that decision. In our view it 
should be a data-driven decision outside of the politics and 
other contexts.
    I think, in general, again, large agency transformation is 
going to be difficult. This is larger than just re-engineering.
    Mr. Tierney. Would you yield for 1 second, Mr. Shays?
    Mr. Shays. Absolutely.
    Mr. Tierney. Mr. Dominguez, would you have any objection to 
your department and Admiral Dunne sharing that information with 
the Government Accountability Office so that they could do 
analysis, look at the data upon which you based your 
determination to go to this particular pilot program so that 
we, as a panel, could then in turn ask the Government 
Accountability Office to give us their assessment of that?
    Mr. Dominguez. Yes, sir. We are happy to share with the 
GAO.
    Mr. Tierney. We will ask the Government Accountability 
Office to take a look at then, and give us some idea then of 
what your views are toward that data.
    Mr. Bertoni. Sure. And to date the information exchange has 
been very good. I must say that we have had a lot of 
cooperation. We have been riding herd as these things move 
forward and asking for information as it is being produced.
    Mr. Tierney. Which is what we want.
    Mr. Bertoni. And we intend to ask.
    Mr. Tierney. And hopefully what this will continue to do is 
give us better insight as well.
    Do you have any other questions, Mr. Shays?
    Mr. Shays. I think Mr. Pendleton wanted to respond.
    Mr. Pendleton. Yes. We laid out in our statement the 
challenge of placing these recovery coordinators. Dole/Shalala 
recommended that these recovery coordinators come from the 
Public Health Service. The idea was that they be significantly 
high ranking and able to sort of break down bureaucracies, and 
I think not necessarily in either of the departments.
    The decisions that DOD and VA have made, I think, are these 
are going to be placed in VA. That can work, but I think that 
is going to require careful lines of accountability and other 
things as it goes forward.
    In terms of the information sharing, which you touched on, 
there has been some progress made. I think the most important 
thing that I saw in our review is there is a mark on the wall 
now. October 31, 2008, DOD and VA have committed to have all 
information viewable, administrative and health information. So 
there is now a mark on the wall for that.
    I am not necessarily familiar with the history. There may 
have been previous marks on the wall, but there is one here.
    In general, I think follow-through after the limelight 
fades, the spotlight fades, is what is going to be more 
important. These plans, many of them are quite solid, are well 
thought through. I think the continued accountability, 
oversight, and keeping track of how well these things are being 
implemented, is going to be key over the long haul.
    Mr. Shays. I thank the gentleman.
    Thank you, Mr. Chairman.
    Mr. Tierney. Thank you.
    We have no intention of letting down the oversight from 
this end of it, and I know each of the departments feels a 
responsibility to do their own oversight. So I hope we are 
going to err on the side of too much oversight as opposed to 
too little on that much to the chagrin of some out there maybe, 
but I think it behooves us all to do that.
    Can either Admiral Dunne or Mr. Dominguez give me the 
answer as to why the decision was made to not use Public Health 
Service Commission Corps, or similar people, instead of VA 
people as these recovery coordinators?
    Admiral Dunne. Sir, I think we are going to work with the 
Public Health Service as we put this recovery coordinator 
system together. Our two lead change agents, the two Deputy 
Secretaries of VA and Department of Defense, have signed out a 
memo which says that we are going to put together a program 
that will recognize that Public Health Service has a consulting 
role with this, be part of the evaluation, etc.
    Mr. Tierney. But, it will not be the actual recovery 
coordinators. Is what you are saying?
    Admiral Dunne. The plan as put together now would have VA 
employees, new VA employees, being the recovery coordinators.
    Mr. Tierney. What do you propose to be the chain of command 
in that? This recovery coordinator, as I understand it, is 
going to be above the triad of individuals that General 
Schoomaker has on bases.
    Admiral Dunne. Correct.
    Mr. Tierney. And who are they going to report to, or does 
the buck stop with them? Are they the patient's advocate, or 
are they the department's advocate?
    Admiral Dunne. They are the patient's advocate, sir.
    Mr. Tierney. And they get to make the final shot, or do 
they have to report up to somebody else?
    Admiral Dunne. They will be of a position description such 
that they have the seniority and the presence of mind to be 
able to understand the system and know when it is time to say, 
based on common sense, somebody needs to do something here and 
fix this problem. They will be coordinators.
    Mr. Tierney. And they will have sufficient rank so that 
when they say, somebody will jump?
    Admiral Dunne. That is the intent. Yes, sir.
    Mr. Tierney. OK. Thank you.
    Admiral and Mr. Dominguez, the SOC is set to expire in May 
2008. Are you going to be done by then?
    Admiral Dunne. Sir, we hope to have made significant 
progress by May 2008, but that date was picked back in May of 
this year as a goal. We are going to work toward that goal, but 
we still have the Joint Executive Council, which is a joint VA 
and DOD organization that will pick up the mantle and continue 
to follow through on anything that the SOC puts in place.
    Mr. Tierney. Thank you.
    Mr. Dominguez. Sir, if I might just add?
    Mr. Tierney. Sure.
    Mr. Dominguez. The SOC was envisioned and created as a 
crisis response organization to drive change fast. The changes 
that get implemented then will transition to the day-to-day 
oversight of this Joint Executive Council. That is where these 
changes will be institutionalized, implemented, and sustained 
for all time.
    Mr. Tierney. Thank you.
    We are going to have additional oversight hearings. It 
would be helpful for us to determine, and ask for your 
cooperation with our staff on this, on whether we ought to have 
individual hearings on specific aspects of the concerns raised 
by the Government Accountability Office--in other words, a 
hearing on disability evaluation and that process, a hearing on 
TBI and PTSD and that situation, one on data sharing, and one 
on the Warrior Transition Units and their staffing on those 
matters, or whether we will have another one in the aggregate.
    Could each of you just, in a couple of words or less as we 
go down the line here, tell me when do you think would be an 
appropriate time for us to check back when we should be able to 
have answers to those, as to how we are proceeding, and a good 
idea that we are getting well along in our progress?
    Mr. Pendleton. On the issues relating to continuity of 
care, that is pretty much new work at GAO, and we haven't done 
a lot of tire kicking yet. We want to get out to some units and 
see what the impacts are of some of these staffing shortfalls. 
It would take us a couple of months probably to be able to give 
you much new on that.
    Mr. Tierney. OK. And everything else?
    Mr. Pendleton. On the information and technology we have 
experts at GAO that have been working on that for a long time. 
I think they could come and have a hearing. They are following 
that actually quite closely, and we cribbed some of their work 
for this.
    On the TBI/PTSD, we have a team following that as well. 
There was a mandate for us to look at that in the National 
Defense Authorization Act last year. That team is starting up, 
but much like the continuity of care work that we are doing, it 
is relatively new. Dan leads our disability specialty.
    Mr. Bertoni. Out of 14 or 15 engagements I have had, I 
probably have eight right now that are VA or DOD looking at the 
benefits delivery, discharge system, vocational rehab for 
returning warriors, overlaps, and inefficiencies in the system. 
We are about to kick a job off on looking at the temporary 
disability retirement list for TBI patients and just a range of 
work that is relevant to what is going on here now. We have 
been doing it for a couple of months, and, of course, in 2, 3, 
4 months if we were asked to come up and give you an interim 
report on any of those issues. We would be able to do that.
    Mr. Tierney. Thank you.
    Mr. Bertoni. And certainly a final report in 8 or 9, 10 
months.
    Mr. Tierney. Thank you.
    So when should we next look at what is happening at Walter 
Reed and the other 29 facilities in terms of all of these 
overriding issues?
    General Schoomaker. Well, sir, one of our milestone events 
is going to be January 2008 when we say we will be fully 
operational and capable for the Army medical action plan. I 
would say any time after that we should be accountable for how 
we are doing.
    Mr. Tierney. Thank you.
    Mr. Dominguez.
    Mr. Dominguez. Sir, my suggestion would be that we are 
ready now on the IT interoperability plans, what is going on, 
where we need to go. I think we are ready now on the PBI/PTSD. 
Again, ready now means to talk to you about where we are in 
this process. Lots of work in both of those in front of us, but 
we are ready now to explain them to you.
    In terms of the disability evaluation system, we are not 
going to actually walk people through that until November. I 
would say in January is probably the right time again for you 
to take a deep dive into that and how it is working, because 
that is when we are actually going to startup the new system if 
all goes well.
    Admiral Dunne. Sir, I agree with my partner on the time 
lines.
    Mr. Tierney. What a surprise. Thank you.
    Let me just end. I want to make one last note with respect 
to General Schoomaker. We heard some comments earlier about a 
number of the soldiers with whom we met and their particular 
cases on that. I think in fairness we ought to note that they 
were just introduced to a new ombudsman's process as of last 
Friday, and you were kind enough to discuss it with us on the 
ride out to Walter Reed the other day. Maybe spend 1 minute at 
least telling us that there were three, I think, that you 
designated for Walter Reed, and what you would anticipate their 
role being, and whether they will be replicated, and when 
throughout the rest of the system?
    General Schoomaker. Thanks for giving me the opportunity to 
talk about that.
    It distresses me, no question, to know that we have a 
single case within the hospital of a warrior in transition who 
is not pleased with his or her care and administrative 
oversight. We have tried to offer as many options for giving us 
candid feedback anonymously or directly with attribution from 
these soldiers. One of which is the ombudsman program. I think, 
sir, you had a great deal to do with this, and that is 
patterned after ombudsmen in other realms besides health care, 
a truly objective arbiter that looks at the system for the 
patient, looks at the system as a system and tries to figure 
out where are the points of weakness, where are the points of 
solution for that particular patient.
    We are bringing those folks on. We are making them 
available to our patients in Walter Reed and across the Army.
    Every soldier is also issued a 1-800 24/7 line that they 
can call and seek help for themselves or their families. We are 
very, very sensitive, especially in our Reserve component, 
about colleagues, their access to answers as symptoms may 
emerge, or as realizations about their disability, or potential 
disability emerge, access to information. That is available, 
too.
    Mr. Tierney. Thank you very much.
    I want to thank you. In fact, it was a previous member of 
my staff that brought up the ombudsman situation, and you were 
kind enough to accept the concept and work with him on that. He 
happened to be a veteran, himself. It is amazing to me the 
number of veterans that are following what is going on with the 
progress on this and feel very committed to it.
    I thank each of you, gentlemen, for the commitment that you 
have made to helping us make sure that something is done. I 
think we are all disturbed. Everybody here is well intended. 
Everybody here is working hard at it. We may have some 
disagreements about whether it is fast enough, whether it might 
be done in a different way, or how we can improve it; but, 
nobody should doubt the commitment that has been made to get 
this resolved. I look forward to your cooperation, and we hope 
that together we will get this expedited. We will put to it the 
sense of urgency that is needed, and we will get the kind of 
treatment that our veterans deserve.
    Thank you all very, very much and for suffering through the 
interruptions that we have had today, as well. Thank you.
    [Whereupon, at 1:18 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
